<html>
<title> - ALLEGATIONS OF SELECTIVE PROSECUTION: THE EROSION OF PUBLIC CONFIDENCE IN OUR FEDERAL JUSTICE SYSTEM (PART II)</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
ALLEGATIONS OF SELECTIVE PROSECUTION: THE EROSION OF PUBLIC CONFIDENCE 
                IN OUR FEDERAL JUSTICE SYSTEM (PART II)

=======================================================================

                             JOINT HEARING

                               BEFORE THE

           SUBCOMMITTEE ON COMMERCIAL AND ADMINISTRATIVE LAW

                                AND THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 14, 2008

                               __________

                           Serial No. 110-178

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov




                   U.S. GOVERNMENT PRINTING OFFICE
42-372 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

           Subcommittee on Commercial and Administrative Law

                LINDA T. SANCHEZ, California, Chairwoman

JOHN CONYERS, Jr., Michigan          CHRIS CANNON, Utah
HANK JOHNSON, Georgia                JIM JORDAN, Ohio
ZOE LOFGREN, California              RIC KELLER, Florida
WILLIAM D. DELAHUNT, Massachusetts   TOM FEENEY, Florida
MELVIN L. WATT, North Carolina       TRENT FRANKS, Arizona
STEVE COHEN, Tennessee

                     Michone Johnson, Chief Counsel

                    Daniel Flores, Minority Counsel

                                 ______

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

MAXINE WATERS, California            LOUIE GOHMERT, Texas
WILLIAM D. DELAHUNT, Massachusetts   F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York             Wisconsin
HANK JOHNSON, Georgia                HOWARD COBLE, North Carolina
ANTHONY D. WEINER, New York          STEVE CHABOT, Ohio
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
ARTUR DAVIS, Alabama
TAMMY BALDWIN, Wisconsin
BETTY SUTTON, Ohio

                      Bobby Vassar, Chief Counsel

                    Caroline Lynch, Minority Counsel


                            C O N T E N T S

                              ----------                              

                              MAY 14, 2008

                                                                   Page

                           OPENING STATEMENTS

The Honorable Linda T. Sanchez, a Representative in Congress from 
  the State of California, and Chairwoman, Subcommittee on 
  Commercial and Administrative Law..............................     1
The Honorable Chris Cannon, a Representative in Congress from the 
  State of Utah, and Ranking Member, Subcommittee on Commercial 
  and Administrative Law.........................................    78
The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................    79
The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................    80
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, Chairman, Committee on the 
  Judiciary, and Member, Subcommittee on Commercial and 
  Administrative Law.............................................    82

                               WITNESSES

The Honorable Paul W. Hodes, a Representative in Congress from 
  the State of New Hampshire
  Oral Testimony.................................................   145
  Prepared Statement.............................................   148
Mr. Allen Raymond, Bethesda, MD
  Oral Testimony.................................................   154
  Prepared Statement.............................................   157
Paul Twomey, Esq., Twomey Law Office, Epsom, NH
  Oral Testimony.................................................   162
  Prepared Statement.............................................   164
Mr. Mark Crispin Miller, Professor, New York University, New 
  York, NY
  Oral Testimony.................................................   247
  Prepared Statement.............................................   248

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Linda T. Sanchez, a 
  Representative in Congress from the State of California, and 
  Chairwoman, Subcommittee on Commercial and Administrative Law:
    Letter dated September 18, 2007, from the Honorable Paul W. 
      Hodes, a Representative in Congress from the State of New 
      Hampshire, to the Honorable John Conyers, Jr...............     4
    Letter dated April 29, 2008, from Holly McCullough, Manager, 
      Carnegie Library of Pittsburgh--Squirrel Hill..............    76
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, 
  Chairman, Committee on the Judiciary, and Member, Subcommittee 
  on Commercial and Administrative Law...........................    85
Material submitted by the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, 
  Chairman, Committee on the Judiciary, and Member, Subcommittee 
  on Commercial and Administrative Law:
    Letter dated May 12, 2006, to the Honorable Alberto Gonzales, 
      Attorney General of the United States from the Honorable 
      John Conyers, Jr...........................................    86
    Letter dated October 3, 2007, to the Honorable Peter D. 
      Keisler, Acting Attorney General of the United States from 
      the Honorable John Conyers, Jr.............................    90
    Letter dated December 20, 2007, to the Honorable Michael 
      Mukasey, Attorney General of the United States from the 
      Honorable John Conyers, Jr.................................    97
    Letter dated January 31, 2008, to the Honorable Michael B. 
      Mukasey, Attorney General of the United States from the 
      Honorable John Conyers, Jr.................................   100
    Letter dated February 29, 2008, to the Honorable Michael B. 
      Mukasey, Attorney General of the United States from the 
      Honorable John Conyers, Jr.................................   104

                                APPENDIX
               Material Submitted for the Hearing Record

Response to Post-Hearing Questions from the Honorable Paul W. 
  Hodes, a Representative in Congress from the State of New 
  Hampshire......................................................   270
Response to Post-Hearing Questions from Allen Raymond, Bethesda, 
  MD.............................................................   271
Response to Post-Hearing Questions from Paul Twomey, Esq., Twomey 
  Law Office, Epsom, NH..........................................   273
Response to Post-Hearing Questions from Mark Crispin Miller, 
  Professor, New York University, New York, NY...................   274


ALLEGATIONS OF SELECTIVE PROSECUTION: THE EROSION OF PUBLIC CONFIDENCE 
                IN OUR FEDERAL JUSTICE SYSTEM (PART II)

                              ----------                              


                        WEDNESDAY, MAY 14, 2008

          House of Representatives,                
             Subcommittee on Commercial            
                    and Administrative Law,        
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittees met, pursuant to notice, at 2:17 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Linda 
T. Sanchez (Chairwoman of the Subcommittee on Commercial and 
Administrative Law] presiding.
    Present: Representatives Conyers, Sanchez, Scott, Watt, 
Cannon, Gohmert, and Coble.
    Staff present: Norberto Salinas, Majority Counsel; Daniel 
Flores, Minority Counsel; and Adam Russell, Majority 
Professional Staff Member.
    Ms. Sanchez. This joint hearing of the Committee on the 
Judiciary, Subcommittee on Commercial and Administrative Law, 
and Subcommittee on Crime, Terrorism, and Homeland Security 
will now come to order.
    Without objection, the Chair will be authorized to declare 
a recess of the hearing at any point.
    I will now recognize myself for a short statement.
    During a March 6, 2007, Commercial and Administrative Law 
Subcommittee hearing on a measure regarding the appointment of 
U.S. attorneys, we posed the following question: Are important 
decisions about our justice system being made for political 
reasons? Seeking answers, the Judiciary Committee has 
investigated whether the Department of Justice has allowed 
politics to seep into its decision-making.
    The investigation initially focused on the firings of 
several United States attorneys for their reluctance to bring 
politically based prosecutions. Gathered evidence led the 
Judiciary Committee to look into other activities of the 
Justice Department, namely whether the Justice Department's 
hiring of career employees was based on the illegal criterion 
of political affiliation. We also began an examination of 
whether the Justice Department brought Federal prosecutions 
based on political motivations.
    Today, we continue this investigation and focus on another 
aspect of the Justice Department's actions. If the Justice 
Department prosecuted individuals for political expediency, did 
it refrain from prosecuting individuals for political purposes?
    Today's hearing is the second joint hearing by the 
Commercial and Administrative Law Subcommittee and the Crime, 
Terrorism, and Homeland Security Subcommittee on allegations of 
selective prosecution. At our first joint hearing in October of 
2007, we heard testimony about Democrats being 
disproportionately targeted for Federal prosecutions under the 
current Administration. This joint hearing will focus on 
limited Federal prosecutions against Republican-leaning 
individuals and groups.
    Under this Administration, the Department of Justice has 
investigated allegations of voter fraud, but has seemingly 
turned a blind eye to investigating allegations of vote 
suppression.
    On Election Day in 2002, Republican Party members and a 
Republican political operative impeded the New Hampshire 
Democratic Party and the Manchester Firefighters Association in 
their efforts to get out the vote. A Department of Justice 
investigation into the incident led to four individuals being 
indicted or pleading guilty for their involvement in 
suppressing voter turnout.
    However, there are allegations that senior Justice 
Department officials limited the inquiry possibly to prevent 
the investigators from determining whether White House 
officials and top Republican National Committee personnel were 
involved. As a result, the Judiciary Committee was requested to 
investigate allegations of vote suppression in New Hampshire.
    We do not know if the investigators were able to determine 
why there were many phone calls between one of the indicted 
individuals, James Tobin, and the White House on the day of the 
election. However, we have learned that the RNC has paid the 
legal fees to defend Mr. Tobin, a decision apparently approved 
by the White House. If there are indications that more senior 
officials in the RNC or even the White House were involved, why 
did the Justice Department appear to limit the investigation?
    We also have learned that the Justice Department did not 
fully investigate another troublesome allegation of vote 
suppression. Media reports in 2004 revealed that employees of 
Sproul & Associates, a Republican-connected voter registration 
firm, were apparently trained to fraudulently identify 
themselves as non-partisan and then register Republicans to 
vote while discouraging Democratic-leaning individuals from 
registering to vote. For those Democratic-leaning voters who 
completed registration cards, Sproul employees in Pennsylvania, 
Oregon, and West Virginia allegedly destroyed those 
registration cards.
    Although these activities are clearly aimed to suppress the 
Democratic vote and to favor Republican candidates, the Justice 
Department quickly determined that there was insufficient 
evidence to prosecute Sproul & Associates. If the media alleged 
vote suppression efforts by a Republican-connected firm, why 
did the Justice Department not fully investigate these 
activities?
    On three separate occasions, the Judiciary Committee has 
requested from the attorney general answers to a series of 
questions and documents about the Justice Department's handling 
of these cases. The Justice Department has failed to address 
our specific questions and has only provided cursory responses.
    We have also invited the Department of Justice to send a 
witness to testify at this hearing, but it has chosen not to 
present a witness. That is unfortunate because the American 
people need to be assured that political considerations play no 
role in determining whether a Justice Department investigation 
is pursued or whether an individual is prosecuted.
    Finally, although some may allege that we are wasting time 
holding this hearing, I question whether those critics would 
tell the American people that an investigation into efforts to 
suppress their right to vote is a waste of time. The American 
people want to be secure in the knowledge that the Federal 
Government will protect their right to vote and will prosecute 
individuals who seek to limit that constitutional right.
    There is simply no place for partisan politics in a 
prosecutor's decision to move forward with a prosecution or to 
end an investigation. Accordingly, I look forward to the 
testimony of our witnesses today.
    Before I conclude, I am going to ask unanimous consent to 
enter into the record two documents relevant to this hearing 
today. The first document is a September 18, 2007, request from 
Representative Paul Hodes, who is here with us this afternoon, 
to Chairman Conyers to investigate allegations of phone jamming 
in New Hampshire on Election Day in 2002. The second document 
is a letter from Holly McCullough, the manager of Carnegie 
Library of Pittsburgh-Squirrel Hill, dated April 29, 2008. In 
the letter, Ms. McCullough documents evidence from the fall of 
2004 involving voter registration efforts by Sproul & 
Associates.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Sanchez. I now at this time would like to recognize my 
colleague, Mr. Cannon, the distinguished Ranking Member of the 
Subcommittee, for his opening remarks.
    Mr. Cannon. I thank the gentlelady.
    And I want to thank Congressman Hodes in particular. I 
think this is the second time you have testified before this 
Committee, the other time on a rather more technical and, 
frankly, more interesting topic. I think that was performance 
royalties, as I recall.
    Thanks for being here.
    Thank you, Madam Chair.
    Welcome to our other witnesses who are not yet at the 
table.
    Let me state at the outset that all Members reject the 
concept of suppression of lawful voting, and I want to be 
crystal clear about that, but you have to ask why are we 
holding this hearing today.
    I think the gentlelady suggested that some have said it is 
a waste of time, not the issue of suppressed voting, but rather 
whether in this case there is sufficient reason for us to 
pursue that. In the case of the New Hampshire phone jamming 
matter, there are two pending trials. Should we be holding 
hearings in the midst of criminal trials? And in his recent 
letter to Chairman Conyers on the Siegelman matter, 
Representative Davis made it clear there are several reasons 
why we should not.
    One of our witnesses today may well be one of the witnesses 
at those trials. I submit that the place for him to be a 
witness is there, not here.
    Second, these cases are old news. The courts and the 
department have already dealt with them. To pick them up now as 
we head toward the 2008 election makes me wonder if this 
hearing is not more about election year politics than genuine 
oversight.
    And, third, I ask: Is it the department that is selectively 
prosecuting or is the Democratic majority in Congress 
selectively investigating? We all know the evenhandedness of 
the Bush administration in prosecuting public corruption on 
both sides of the aisle and other politically charged cases, 
and we all should know of allegations formed by the Obama and 
Clinton campaigns this election cycle, allegations that each of 
these campaigns has attempted to suppress the other's votes. 
Why are we not investigating that?
    We have held a host of hearings this term into allegations 
the department has been politicized. None of them have been 
substantiated. Along the way, the majority has ignored a host 
of other real and pressing issues that the country urgently 
needs to tend to. We should be holding hearings on those 
pressing issues today, which brings me to my final point.
    Some weeks ago, I wrote the Chairwoman urging her to hold 
hearings on neglected Republican bills to stamp out 
discriminatory State taxes from cell phones to pipelines. Other 
Ranking Members wrote similar letters to the Chairs of their 
subcommittees. Why have we not turned to these legislative 
priorities? Why do we incessantly continue looking over the 
shoulders of the department and the courts, questioning the 
work we cannot do for them while ignoring the work that only we 
can do.
    You know, the heading and the title of today's hearing is 
intriguing. It is the ``Joint Hearing on Allegations of 
Selective Prosecution Part II: The Erosion of Public Confidence 
in our Federal Justice System.'' That title encompasses a host 
of very important issues. I suspect that the issues we deal 
with today are not going to rise to the level of what I think 
this Committee should be dealing with.
    We have had a number of hearings where corruption has been 
thrown out. I repeatedly have asked the Chair that if she says 
that, she needs to substantiate it. Let us hope that at least 
the hearing has something worthwhile either in the way of 
substantiating corruption or recognizing that we are chasing 
shadows here.
    Thank you, Madam Chair. I yield back.
    Ms. Sanchez. The gentleman yields back.
    At this time, I recognize my colleague, Mr. Scott, the 
distinguished Chairman of the Subcommittee on Crime, Terrorism, 
and Homeland Security, for his opening remarks.
    Mr. Scott. Thank you, Madam Chair.
    And I would like to thank my colleagues on the Commercial 
and Administrative Law Subcommittee for joining us in holding 
Part II of this joint hearing.
    For over a year now, Republicans as well as Democrats have 
accused this Administration of firing Bush appointed U.S. 
attorneys for improper political reasons, including some who 
may have been fired because they did not indict Democrats in 
time to affect an upcoming election or pursue alleged vote 
fraud cases that would have helped Republicans.
    Some think that these allegations are serious, and some may 
be not so serious. But the fact is we have been unable to 
ascertain the truth of the allegations for several years.
    For example, several senior Department of Justice officials 
question the credibility of the attorney general's original 
response to the allegations. Several high-ranking Justice 
Department officials have quit. Another one pleaded the Fifth. 
White House officials have refused to respond to subpoenas. And 
the U.S. attorney incident highlighted a growing concern, and 
that is the misuse of prosecutorial discretion to affect 
elections.
    In October of last year, we held a joint hearing where the 
Republican former attorney general Dick Thornburgh and others 
testified about politically motivated and aggressive 
prosecutions that benefited Republicans. Today's hearing is a 
follow up that focuses on allegations of interference with 
voters' rights and the department's failure to adequately 
investigate and prosecute voter suppression cases, including 
the phone jamming case that arose in New Hampshire in 2002 and 
the equally troubling activities of Sproul & Associates during 
the 2004 election cycle that also benefitted Republicans.
    Although these incidents occurred years ago, we have been 
stymied in conducting meaningful oversight on these issues due 
to the department's refusal to meaningfully respond to requests 
for information, and, in fact, we invited the Department of 
Justice to today's hearing, but they declined to send anybody.
    The phone jamming incident involved the jamming of 
telephones belonging to the New Hampshire Democratic Party and 
the Manchester Firefighters Association on Election Day 2002. 
This disruption of the get-out-the-vote effort has led to the 
criminal prosecution of three perpetrators, two of them serving 
jail time, including Allen Raymond, a witness here today, and 
Charles McGee, the 2002 executive director of the New Hampshire 
Republican Party. These individuals pleaded guilty to charges 
under 18 USC 371, conspiring to commit the offense of engaging 
in interstate telephone communications with the intent to annoy 
or harass.
    Although the prosecutions of relatively low-level officials 
have proceeded, there are serious questions about the scope of 
the department's investigation and prosecution effort and its 
failure to go after higher-level officials. According to 
published reports, 22 phone calls were exchanged between the 
New Hampshire Republican officials and the White House Office 
of Political Affairs starting at 11:20 a.m. on Election Day 
2002 and running past 2 a.m. on Election Night, and 110 phone 
calls were placed between Mr. James Tobin, the New England 
director for President Bush's 2004 campaign, and the White 
House in the 2 months surrounding the election.
    It is not clear what action, if any, was taken to determine 
the significance of these communications, and to add more 
intrigue to the case, the FBI special agent working on the 
matter allegedly was instructed not to follow the investigative 
leads back to Washington.
    The second matter of today's hearing pertains to a voter 
registration firm, Sproul & Associates, which declined to 
register Democratic voters and even apparently went so far as 
destroying registration cards collected from Democratic voters 
in several States during the 2004 election cycle. A former 
employee described in an affidavit being trained to register 
only Republicans and to tear up Democratic registrations in 
that State.
    The alleged misconduct taken by this firm clearly 
suppressed votes and would violate Federal law, but yet we are 
unaware of any meaningful Justice Department action with regard 
to this firm and the practices it engaged in. These two cases 
add to a growing list of disturbing incidences that raise 
questions as to the department's impartiality in pursuing or 
choosing not to pursue cases. The department's commitment to 
protecting and enhancing all citizens' right to vote has also 
been damaged and needs to be restored. I hope this hearing will 
help clear up the air about theses two unusual cases.
    I yield back.
    Ms. Sanchez. The gentleman yields back.
    I want to thank Mr. Scott for his opening statement.
    At this time, I would recognize Mr. Gohmert for his opening 
remarks.
    Mr. Gohmert. Thank you, Chairwoman Sanchez.
    I must agree with my colleague, Ranking Member Cannon. You 
know, why are we here today?
    The majority has been wasting the Committee's time and 
resources for 16 months now trying to find some silver bullet 
that they believe will completely destroy an Administration 
that some here on Capitol Hill despise.
    Now we just cut short a markup of seven crime bills so we 
could hold a hearing on these allegations of supposed selective 
prosecution for political purposes. We went all through that as 
the majority went after Attorney General Gonzales for political 
reasons letting go some U.S. attorneys. So much time was 
wasted.
    We were taking up just within the last hour or two what may 
be the most important criminal bill that this Committee has 
taken up, the Debbie Smith DNA Reauthorization Act. It had some 
great provisions in it, great bipartisan work on getting that 
done. We did not finish the bill so we could stop that and come 
in here and have this hearing.
    The claim apparently is selective prosecution in a case 
that dates back to 2002 and allegations of phone jamming in New 
Hampshire on Election Day 6 years ago. This issue is a bit old. 
The Department of Justice has already brought charges against 
the four individuals alleged to have been involved. This case 
is old enough that two of the defendants who pled guilty have 
already completed their sentences.
    The majority claims misconduct by the White House, the 
Justice Department, the RNC. Once again, desperation has led us 
to have a hearing on baseless accusations against nameless 
individuals. Now there apparently were some bases, and those 
are being pursued, and if there is a base, then pursue it, but 
this hearing was not held, I must point out, in 2007. We waited 
until an election year to hear about Republicans using 
politics.
    We have heard over and over, had hearings repeatedly 
concerned about issues like Scooter Libby, and we have had 
Joseph Wilson come in here and testify, and I tell you I have 
heard him testify more than once, and, as a former judge, it 
sure looks to me like we have had false testimony. Nobody is 
pursuing any of that. We had Scooter Libby prosecuted when the 
special prosecutor knew immediately after beginning the 
investigation that Scooter Libby did not leak the information. 
So he goes after him, gets him to make more than one statement, 
and then pursues him for making a false statement, which 
certainly appears to me could be done against Joseph Wilson 
without a special prosecutor, but that is not being done.
    What I find truly ironic is that unlike many of the 
previous rants about selective prosecution, this actually 
involves Republican and not Democratic defendants. What appears 
here is that if a case involves a Democrat, the department went 
too far; if it involves a Republican, it did not go far enough. 
Again, is there possible hypocrisy here?
    Let me just point out, with Attorney General Gonzales, the 
hearings made clear over and over there was no illegal or 
unethical conduct. U.S. attorneys were let go for political 
reasons. We had a President named Clinton let go 92 U.S. 
attorneys, and it was purely for political reasons. There were 
allegations there was more skullduggery than that. None of that 
was pursued and not even with the new Justice Department.
    I was informed that Bob Ney who was being investigated was 
told, ``You either enter a plea by October 12 in 2006, or we 
will not negotiate,'' and if that were true, that is clearly 
this Justice Department using politics to help one party over 
another.
    We had hearings; we have had information in meetings over 
the issues involving Congressman Jefferson. If the Justice 
Department could prove a fraction of what they swore to in 
their 80-page affidavit, they could have had him prosecuted 
long before the 2006 election, yet here all this time later, 
nothing has been done. The prosecution has not moved forward.
    There were reports of other Democratic members of our body, 
according to published reports and newspapers, allegations of 
potential criminal wrongdoing. Nothing seems to be coming 
forward from Justice Department there.
    We had election fraud that was alleged in Washington State, 
yet nothing was pursued there when it would have helped 
Republicans.
    Ms. Sanchez. The time of the gentleman has expired.
    Mr. Gohmert. Oh, I did not see a clock. Well, let me just 
finish since I did not have a clock warning.
    Ms. Sanchez. So finish your final thought. We are anxious 
to move the hearing along because----
    Mr. Gohmert. All right. Let me finish by saying this. There 
were 1,000 FBI files in the Clinton White House. Chuck Colson 
went to prison for one, and nothing was done to anybody. Those 
were lay-down prosecutorial cases. So I have trouble getting 
all upset on this. Let's let justice take its course.
    In closing comment, I ask one of the leaders in the Justice 
Department previously, ``Is the veneer of appointed Republicans 
in your department just so thin that the Democratic underlings 
in the department just run things?'' and he said, ``The veneer 
is much thinner than you would ever imagine.''
    I yield back.
    Ms. Sanchez. The gentleman yields back his time.
    At this time, I would like to recognize the Chairman of the 
full Committee on the Judiciary, Mr. Conyers, for his opening 
statement.
    Mr. Conyers. Thank you, Madam Chairwoman.
    I appreciate these hearings, and the fact that we have two 
of our colleagues, Chris Cannon and Judge Gohmert, that I 
consider to be personal friends, joining me in this examination 
this afternoon. I think it is very critical.
    I have been listening carefully, and both my friends have 
asked about other investigations that you in your wisdom have 
chosen not to pursue, but since they have listed them now 
publicly, I would like to meet with Chairwoman Sanchez and 
Ranking Member Cannon and determine which of these matters 
ought to be inquired into.
    Gosh, Chris Cannon wants to even examine concerns about 
voting matters expressed by the Clinton and Obama campaigns. I 
notice that the McCain campaigns are not significant enough to 
reach his concern, but as important as the hearings were this 
morning, I say to Judge Gohmert, we are talking about people 
who have violated election laws and the criminal code, some of 
whom who have already been found guilty and some whose trials 
are pending, but you say we do not need to worry about the ones 
that have been found guilty and we cannot question the ones 
that are about to go to trial. What are we here for?
    To me, Chairwoman and Members of this Committee, the single 
most important responsibility of the House Judiciary Committee 
between now and November 4 is to bring back the most honest and 
protected and guaranteed system of casting our ballots for 
governance that we have needed and have not had in a long time. 
Everyone here knows that the elections of 2000 and 2004 
created--well, there are books written on it now. There are 
lawsuits. There are people in prison.
    But I want my Members on the House Judiciary Committee to 
be interested and concerned about how we get most people to 
feel comfortable about the assurances of their right to vote, 
the integrity of the voting process, and of the administration 
of justice itself. That is why we have jurisdiction over the 
Department of Justice. The reason is to make sure that the 
Justice Department does its job.
    Now I have letters going back to May 12, 2006, where I have 
been asking Attorney General Alberto Gonzales to appoint a 
special prosecutor. I have letters going back about the subject 
matter that we are discussing today. I have about three 
letters, I think, so far to his successor, Attorney General 
Mukasey, asking for the letters and the information regarding 
our subject matter. So we are kind of getting a little bit 
tired of this.
    Now the Republican National Committee is in big trouble in 
several respects, but the one that we are concerned with most 
today is the delaying of the prosecution and the interfering 
with the related civil case in the New Hampshire phone jamming 
case, the failure to bring any charges in the Sproul case. 
There was a videotape of destroyed Democratic registration 
cards and extensive evidence of numerous acts of registration 
and voting misconduct.
    And what has our Committee, Madam Chair and gentlemen of 
the Committee, gotten out of this? Almost total stonewalling. 
Almost total stonewalling. And the patience of your Chairman is 
unlimited in these matters almost. But let me tell you if 
anyone thinks--without regard to whether it is D or R involved, 
we are going to continue an investigation and, as lawyers, take 
our experience to anywhere that it may lead, including, if 
necessary, subpoenas for the relevant documents.
    Now this is directly to the attorney general of the United 
States whom I consider a friend of mine. You better get some 
documents answered fast, Mr. Attorney General, or you will be 
receiving a request from me to the Committee to issue a 
subpoena in this regard. I am not going to be slow-walked 
through the November 4 elections as if I have not been here 42 
solid years.
    Mr. Cannon. Would the gentleman yield?
    Mr. Conyers. With pleasure.
    Mr. Cannon. I thank the gentleman and the Chairman of the 
Committee, and, in fact, as is almost always the case, we have 
large areas of agreement and only one point that I would like 
to make. The gentleman has talked about returning back to a 
state where we have confidence in the system.
    We have a great deal more information today about the 
system. I think it is important, I think the gentleman would 
agree, that the American people need to have confidence in the 
system of how we vote and how the votes are counted, but that 
in comparison, rather than saying back to a system, I would 
hope that the gentleman would say we have always had flaws, 
maybe historically much greater flaws, than we have currently, 
but, I mean, characterizing that there is no place for known 
errors that should be left unprosecuted because I would hate 
the American people to listen to this hearing and think that 
somehow in the vast majority of cases their votes are perverted 
or discounted or not counted appropriately.
    I think it is pretty clear that the vast, vast majority of 
voting is done in ways where people show up at their local 
precincts, they are known by the people that hand out ballots, 
and those are not partisan people, but people who are committed 
to a process, and that where we have those rare areas, we ought 
to prosecute them. The disagreement here is only whether or not 
the appropriate thing is to oversee a prosecution in the midst 
of the prosecution as opposed to looking at the whole system to 
find out where those errors might be.
    And, frankly, we have a much larger problem in America I 
think, than the current examples of problems with the voting, 
and that is with the discretion of prosecutors which is 
virtually unchecked, and that is an area where I think it is 
just vital that this Committee focus some attention, and so 
while I am not disagreeing largely, I would hope that the 
American people take from this that we are assiduous in looking 
at violations, but that the system as a whole has proven itself 
to be sound and that, when a person votes, his vote is 
overwhelmingly likely to be taken as it is and counted 
appropriately, and the elections that are based on his or her 
votes are appropriately decided.
    Thank you.
    I yield back.
    Mr. Conyers. I thank the gentleman, and I am sure that he 
is helping the citizens of this great country sleep more 
comfortably in their beds at night knowing that things are 
mostly okay and there are only a few things that we have to 
clean up in the process.
    Well, we have a Department of Justice that is supposed to 
be doing the cleaning up. We are not a prosecutorial body. We 
do not come here to name who has committed crimes or who should 
stand trial to be found guilty or innocent. What we do is 
investigate and oversight and improve the legislative process 
as a result of that, and so that is all we are trying to do.
    But when you have the level of politicization--and I am not 
naive about it. This did not start during this present 
Administration. I do not suggest that at all, and I hope that 
we can continue this hearing without becoming partisan in our 
comments. We are all avid Republicans and loyal Democrats and 
all that, but when we come to the hearings of this Committee, 
it is far more important that we try to prove to the American 
people rather than tell them most things are okay.
    But many things are not okay, and no one knows better than 
Chris Cannon. We have problems with the machinery, the computer 
system, the touch screen. All of that is in disarray. We have a 
witness here who has written books about this subject matter, 
and so I am going to put the rest of my comments in the record, 
ask unanimous consent to put in the May 12, 2006, letter to 
then Attorney General Alberto Gonzales, and all the letters I 
have written to the present attorney general asking as politely 
as we can for the information that is needed for this Committee 
to have the kind of hearings that we deserve, and I thank the 
gentlelady for her generosity in allotting me time.
    [The prepared statement of Mr. Conyers follows:]

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
  in Congress from the State of Michigan, Chairman, Committee on the 
 Judiciary, and Member, Subcommittee on Commercial and Administrative 
                                  Law

    This hearing brings together two of the most important subjects of 
the Committee's work: protecting and preserving the right to vote, and 
keeping politics out of the Department of Justice.
    We will hear today about disturbing examples of vote suppression in 
New Hampshire, Nevada, and around the country, and about an even more 
disturbing failure of the Department to throughly address these 
matters.
    Let me be specific and identify three serious problems with these 
cases, that call for serious solutions.
    First, politics appears to have infected the phone jamming 
prosecution in several ways. Evidence suggests the Department did not 
investigate or prosecute higher ups at the RNC or White House, delayed 
the prosecution effort, and interfered with a related civil suit.
    Second, despite compelling evidence of wrongdoing such as videotape 
of destroyed Democratic voter registration cards and on-the-record 
statements regarding political abuse of the voter registration process, 
the Department does not appear to have conducted any meaningful 
investigation in the Sproul case.
    Third, the Department has simply stonewalled our oversight on these 
matters, refusing to provide complete answers to our questions and 
refusing to provide any documents in response to our requests.
    This hearing, like others we have held before on these issues, 
represents an important step forward in solving these problems. 
Overall, I see three important steps that we should take to address 
these matters.
    First, we must continue our aggressive investigation of these 
matters, including a subpoena for relevant documents if stonewalling 
continues.
    Second, through hearings like this and other steps, we must expose 
and publicize these problems to provide public accountability for the 
Administration and to help ensure that Department decisions are made on 
a nonpartisan basis in connection with the 2008 elections.
    Third, we must conduct regular staff meetings and Committee 
oversight of the Department's voting rights and prosecution practices, 
including a hearing with Attorney General Mukasey this summer.
    I thank the Subcommittees for holding this important joint hearing 
and look forward to hearing from our witnesses today.

    Ms. Sanchez. Without objection, the documents that you 
request be made a part of the record will be made a part of the 
record. I want to thank you for your opening statement.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Sanchez. I am going to urge Members that we move the 
hearing along as quickly as we can, and, for that reason, I am 
pleased to introduce our first witness. Our witness for the 
first panel is Congressman Paul Hodes who represents the Second 
District of New Hampshire, elected on November 7 of 2006.
    Representative Hodes has emphasized economic development, 
health coverage for college students, and the need for 
independent advocates for our veterans as part of his first-
term goals. Mr. Hodes currently serves on the Oversight and 
Government Reform Committee and the Financial Services 
Committee.
    Prior to his election to Congress, Mr. Hodes served as an 
assistant attorney general and as the special prosecutor for 
the State of New Hampshire.
    I want to thank you for your willingness to participate in 
today's hearing. Without objection, your written statement will 
be placed into the record in its entirety, and we are going to 
ask that you limit your oral remarks to 5 minutes. I am sure 
you are familiar with the lighting system. So I am not going to 
belabor that point.
    And at this time, I would welcome your testimony on the 
subject matter of today's hearing because we have kind of 
gotten off on some relevant but tangential issues about voter 
suppression. So, at this time, I would invite you to give your 
oral testimony.

 TESTIMONY OF THE HONORABLE PAUL W. HODES, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF NEW HAMPSHIRE

    Mr. Hodes. Thank you, Chairwoman Sanchez and Chairman 
Conyers, Ranking Member Cannon, Chairman Scott, Ranking Member 
Gohmert, and distinguished Members of the Committee, for 
holding this important hearing today. I am glad to be able to 
testify and raise some of the unanswered questions that 
surround the New Hampshire phone jamming case.
    In 1968, Justice Hugo Black wrote, ``No right is more 
precious in a free country than that of having a vote in the 
election of those who make the laws under which as good 
citizens we must live. Other rights, even the most basic, are 
illusory, if the right to vote is undermined. Competition and 
ideas in governmental policies is at the core of our electoral 
process and in the First Amendment freedom.''
    Nearly 6 years ago, political operatives sought to subvert 
our electoral processes for their own political gain. Today, we 
are talking about the integrity of our elections, the very 
foundation of representative democracy. I am here to help 
ensure that New Hampshire voters are represented, their 
elections are conducted with integrity, and that justice is 
served.
    On November 5, 2002, Election Day, Republican political 
operatives jammed the phone lines of key Democratic get-out-
the-vote efforts. Three of these political operatives have been 
prosecuted for this scandal.
    Allen Raymond, who I expect to testify here today, was the 
political operative hired by the New Hampshire Republican Party 
and was responsible for jamming the phones. He pleaded guilty 
to conspiracy to engage in interstate telephone communications 
with intent to annoy or harass on June 30, 2004.
    Charles McGee, the 2002 executive director of the New 
Hampshire Republican Party, pleaded guilty to conspiracy to 
engage in interstate telephone communications with intent to 
annoy or harass on July 28, 2004.
    James Tobin was the 2002 regional political director for 
the Republican National Committee and the 2004 New England 
director for the Bush-Cheney campaign. Tobin was convicted of 
conspiracy to commit telephone harassment and aiding and 
abetting telephone harassment on December 25, 2005. He was 
later acquitted on appeal. His case now is in the First Circuit 
Court of Appeals.
    Despite years of investigation and prosecution, significant 
and serious questions remain unanswered. There is evidence that 
the political scheme runs deeper and wider than these 
individuals who were prosecuted and convicted.
    This Committee, as you have heard, has been investigating 
the phone jamming case since 2006 when on May 12, 2006, 
Chairman Conyers asked then Attorney General Gonzales about the 
``outstanding issues'' in the phone jamming case and requested 
the appointment of a special prosecutor. Additional letters 
were sent by Senators Leahy and Kennedy of the Senate Judiciary 
Committee to then Attorney General Gonzales. However, no 
special prosecutor was ever appointed and the Bush 
administration continues to claim executive privilege on key 
questions.
    It remains unclear whether the White House was involved in 
the phone jamming scandal. On Election Day 2002, 22 phone calls 
were exchanged between New Hampshire Republican officials and 
the White House Office of Political Affairs from 11:20 a.m. to 
2:17 a.m. Who at the White House received those calls? Were 
White House officials knowledgeable of the phone jamming or 
plans to jam the phones? Are there documents that the White 
House possesses that could help the Committee or the Department 
of Justice to answer these questions?
    Secondly, there were major delays in prosecuting the phone 
jamming case that have not been properly investigated. The 
phone jamming occurred on November 5, 2002. Yet Mr. Tobin was 
only indicted after the 2004 presidential elections where he 
was an employee of Bush/Cheney 2004.
    Furthermore, according to the McClatchy newswire, as 
recently as December 19, a Department of Justice employee 
admitted that senior DOJ officials delayed the investigation. 
Did the DOJ deliberately wait until after the 2004 presidential 
election to begin the prosecution of a Bush-Cheney 2004 
employee?
    In short, we need to know whether others were involved in 
the election interference, whether they attempted to cover up 
the involvement of other political operatives, and whether 
there was a concerted effort to delay prosecution. Was there a 
connection between the phone jamming plot, the Republican 
National Committee, and the White House?
    The question has been asked before, many years ago, 
essentially what did they know and when did they know it. At 
the very least, the DOJ had a conflict of interest in 
investigating this political scheme and should have appointed a 
special prosecutor. The questions surrounding phone jamming 
warrant an unbiased complete investigation, which we have not 
had.
    The people of New Hampshire and of America deserve nothing 
less than the full truth. They deserve to know whether the 2002 
elections they participated in were tampered with by Republican 
political operatives and whether there was a concerted effort 
to cover up the political trickery.
    I commend this Committee for trying to give the citizens of 
my home State and this country the answers that they deserve. 
The right of Granite Staters to enjoy free and fair elections 
was put in jeopardy, and they need to know the full truth.
    Political fraud cannot be allowed to compromise the 
electoral process. It happened before, and acts that compromise 
our process undermine the fabric of democracy and have no place 
in America.
    Election tampering degrades who we are as a Nation and as a 
democracy. Let's make sure that those who broke the law and 
betrayed the people's trust are brought to light and brought to 
justice.
    Thank you, and I will be happy to answer any questions you 
may have of me.
    [The prepared statement of Mr. Hodes follows:]

Prepared Statement of the Honorable Paul W. Hodes, a Representative in 
                Congress from the State of New Hampshire

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Sanchez. Thank you, Congressman Hodes.
    We certainly appreciate your testimony, and we understand 
how important it is to you, and that, in fact, is why we are 
looking at these issues of politicization of the DOJ and 
through the numerous avenues that we have had at our disposal 
to ask questions and to try to receive information that would 
help clarify these and many other issues, we have gotten very 
little, if any, cooperation from the Department of Justice to 
help us in our investigation.
    So I can hear the frustration in your voice. I share that 
frustration. I think the subcommittee really has fought in good 
faith to try to get details of information so that we can check 
to make sure that the process has integrity, that it is non-
partisan in the application and the prosecution of laws, and 
that has been thwarted time and time again.
    But, at this time, we normally do our 5 minutes for 
questioning. I do not have any questions for you. I would ask 
if there are any others on the dais that do have questions.
    Mr. Cannon?
    Mr. Cannon. I do, Madam Chair.
    Ms. Sanchez. Mr. Cannon is recognized for questioning.
    Mr. Cannon. Thank you, Madam Chair.
    And we are just trying to sort of put this together, and 
could you help me a little bit here? The activity you have 
testified about happened about 6 years ago, right?
    Mr. Hodes. Correct.
    Mr. Cannon. And you had three people that were found 
guilty, one is still on appeal, and he was reversed, but the 
guilty plea is now on appeal, right?
    Mr. Hodes. Correct.
    Mr. Cannon. You have made broader allegations of where this 
was all going, but, as I understand it, the telephone calling 
started about 7 a.m.
    Mr. Hodes. Really what I am here to do is to raise 
questions more than give you answers. There are many others who 
are more familiar with the intimate details of what happened. 
There are records which show hundreds of phone calls from 
various of the people involved in this scheme, and, in 
particular, as I have suggested, on Election Day, 22 phone 
calls were exchanged between New Hampshire Republican officials 
and the White House Office of Political Affairs----
    Mr. Cannon. I understand that, but, if you do not know the 
answer, I do not want to persecute you and ask you. We are just 
trying to get some information.
    Mr. Hodes. You asked me whether or not it happened at 7 
a.m.
    Mr. Cannon. Do you know when? Was it 7 a.m.? Are you aware?
    Mr. Hodes. I would defer to the records which are a better 
source. My information is that----
    Mr. Cannon. My understanding is that the telephone jamming 
ended at about 7:30. So it did not go on for very long. Is----
    Mr. Hodes. The telephone jamming did not go on for very 
long?
    Mr. Cannon. Is that your understanding?
    Mr. Hodes. My understanding is that the telephone jamming 
occurred. Whether it went on for very long or not----
    Mr. Cannon. This is not an argument. Pardon me. If you do 
not understand, if you do not have the history, that is fine. I 
am asking. You do not know then when it stopped?
    Mr. Hodes. I do not have the precise time.
    Mr. Cannon. Are you aware of who called it off?
    Mr. Hodes. My understanding is that there were Members of 
the Republican State Committee who eventually called it off, 
but I would defer again to----
    Mr. Cannon. Well, you say eventually. That means----
    Mr. Hodes. May I just finish my answer, Mr. Cannon? I was--
--
    Mr. Cannon. Well, I----
    Ms. Sanchez. Please allow the witness to answer the 
question.
    Mr. Cannon. Pardon me. It is my time, and I do not mean to 
hector the witness, but I----
    Ms. Sanchez. The witness is attempting to answer your 
question.
    Mr. Cannon. Madam Chair, it is my time.
    Ms. Sanchez. I under----
    Mr. Cannon. It is not your time and not your time to direct 
how I handle it.
    Ms. Sanchez. I understand, but you will allow the witness 
the courtesy of answering your question. If you want additional 
time----
    Mr. Cannon. Madam Chairman, it is not a matter of courtesy 
that you judge.
    Ms. Sanchez [continuing]. I would be happy to give you 
additional time.
    Mr. Cannon. It is a matter of courtesy that I judge. I am 
just asking a couple of simple questions. When you talk about 
eventually, that makes it sound like a longer period of time. 
If you do not know how long it was, then that is all we need to 
understand.
    Mr. Hodes. I am informed that the timeframe was 7 a.m. to 9 
p.m. continuing throughout the day.
    Mr. Cannon. And does your information suggest that it was 
planned from 7 to 9 or that it went from 7 to 9:00?
    Mr. Hodes. My information is, my understanding is that 
there was no plan to terminate the phone jamming earlier, and I 
would defer to others who were more intimately involved in 
these matters. You will be hearing from Attorney Paul Twomey 
who was intimately involved in all phases of both criminal and 
the civil cases which resulted from this matter, and I bet that 
he will be able to give you with specificity the answers you 
seek.
    Mr. Cannon. That is fine.
    Ms. Sanchez. Will the gentleman yield?
    Mr. Cannon. I would be happy to yield.
    Ms. Sanchez. I was just going to mention that our second 
panel of witnesses probably more appropriately can answer the 
detailed questions that you have----
    Mr. Cannon. Well, reclaiming my time, I understand that, 
and I----
    Ms. Sanchez [continuing]. Regarding the specifics.
    Mr. Cannon. Again, I do not mean to hector the witness. I 
just want to find out what he knows as colleagues. I do not 
mean to even ask questions that are difficult.
    But let me just shift gears a little bit here. I think you 
are aware of the claims between the Obama and the Clinton 
campaigns about vote suppression. Have you heard those 
allegations?
    Mr. Hodes. In general, I am aware that concerns have been 
raised. I have no intimate knowledge and was not expecting to 
testify today in any way about anything happening----
    Mr. Cannon. Generally speaking, should this have been----
    Mr. Hodes [continuing]. With the Obama or Clinton campaign 
allegations. I was here----
    Mr. Cannon. Well, should this----
    Mr. Hodes. I was here to testify about the----
    Mr. Cannon. I am not asking you----
    Mr. Hodes [continuing]. Phone jamming matters in New 
Hampshire.
    Mr. Cannon. Reclaiming my time, since it is almost gone 
here, recognizing the importance of vote suppression, is that 
the sort of thing this Committee should look at, the problems 
in Nevada between the two Democratic candidates, the claims 
that each are making here that they are trying to suppress the 
vote?
    Mr. Hodes. I take----
    Mr. Cannon. Is that urgent for this Committee?
    Mr. Hodes. Well, far be it for me to dictate to the 
Committee what its jurisdiction or interests should be. I 
appreciate that the Committee is investigating this important 
problem, 2002, Republican operatives jamming phones in New 
Hampshire and a lack of investigation----
    Mr. Cannon. Reclaiming my time----
    Mr. Hodes [continuing]. And follow up.
    Mr. Cannon. I think you have actually said that several 
times. So why don't I yield back, Madam Chairman, and we can 
move on with this hearing.
    Thank you.
    Ms. Sanchez. The gentleman yields back the balance of his 
time.
    Okay. If there are no further questions, I would like to 
thank Congressman Hodes for his testimony, and I will excuse 
you at this time. We appreciate again your patience.
    And we will take a brief recess, so we can seat our second 
panel of witnesses who I think more appropriately can answer 
some of the questions that have been raised.
    Thank you, Mr. Hodes.
    Mr. Hodes. I thank the Committee.
    [Recess.]
    Ms. Sanchez. Okay. I would like to call the subcommittee to 
order.
    I know that we have two of our three witnesses for the 
second panel seated, but, as we are expecting votes at 
approximately 3:15, I would really like to get everybody's 
testimony in before then. So I am going to go ahead and 
introduce the witnesses on our second panel for today's 
hearing.
    Our first witness on this panel is Allen Raymond. Mr. 
Raymond is a business development consultant and one of the 
authors of ``How to Rig an Election: The Confessions of a 
Republican Operative.''
    Prior to writing his book, Mr. Raymond owned a Virginia-
based GOP phone bank company called GOP Marketplace and also 
held a paid position as executive director of the Republican 
Leadership Council. During his service as executive director, 
Mr. Raymond took part in a phone jamming scheme during the 2002 
New Hampshire elections which resulted in his conviction and a 
3-month Federal prison sentence.
    Our second witness is Paul Twomey. Mr. Twomey owns a 
private law practice focusing on criminal defense and voting 
rights law. Prior to 1985, he worked for the New Hampshire 
Public Defenders Program.
    Since 2004, Mr. Twomey has represented on a pro bono basis 
the New Hampshire Democratic Party, the Republican, Democratic, 
and the Independent candidates for office on issues such as 
ballot order rotation, mid-decade redistricting, and the New 
Hampshire phone jamming case. He has served as State counsel 
for the Howard Dean presidential campaign and associate State 
counsel for the Kerry-Edwards campaign.
    Mr. Twomey is currently the New Hampshire legal chair for 
the Obama campaign.
    And our final witness for this panel, who has just joined 
us, is Mark Crispin Miller. Professor Miller teaches Media, 
Culture, and Communication at New York University. His writings 
on film, television, propaganda, advertising, and the culture 
industries have appeared in numerous journals and newspapers.
    In 2005, Professor Miller authored ``Fooled Again: The Real 
Case for Electoral Reform.'' He is also the author of the 
``Bush Dyslexicon: Observations on a National Disorder,'' and 
``Cruel and Unusual: Bush-Cheney's New World Order.''
    I want to thank you all for your participation in today's 
hearing.
    Again, you will note that we have a lighting system. When 
your time begins, you will see a green light. After 4 minutes 
of testimony, the light will turn yellow to warn you that you 
have 1 minute remaining. When your time has expired, you will 
see a red light. If you are mid-sentence, we will allow you to 
finish your final thought before moving on to the next witness.
    After each witness has presented his testimony, 
subcommittee Members will be permitted to ask questions subject 
to the 5-minute limit.
    And with that, I would invite Mr. Raymond to begin his 
testimony.

            TESTIMONY OF ALLEN RAYMOND, BETHESDA, MD

    Mr. Raymond. Good afternoon, Chairman Conyers, Chairman 
Sanchez, Chairman Scott, Ranking Member Cannon, and Members of 
the Committee.
    Your invitation to speak to you today was welcome. It gave 
me an opportunity to further my goal of bringing transparency 
to the events now known as the New Hampshire phone jamming of 
Democratic Election Day phone lines at the direction of the 
Republican National Committee, the New Hampshire Republican 
State Committee, and made possible by my own efforts as the 
Republican consultant who arranged for the telemarketing 
services that conducted the jamming of the phone lines.
    Such an opportunity is welcome because it allows for the 
public service of illuminating the worst practices by bad 
actors within our electoral process so that awareness may 
dampen similar attempts in the future to taint our electoral 
process.
    Justice Brandeis wrote that ``sunlight is the best 
disinfectant; electric light, the best policeman.'' This was 
the spirit in which I wrote ``How to Rig an Election: 
Confessions of a Republican Operative,'' a book I encourage you 
all to read, if you have not already.
    What I hope the book and my appearance before you today to 
be is a public service. My desire is to shed a ray of sunlight 
on a process that requires periodic disinfection and perhaps 
evoke from this distinguished Committee the electric light that 
will better patrol our election process and, more importantly, 
the trade people within it.
    Political management is a big business, boasting master 
degrees from top-tier universities and flaunting riches to 
political operatives eager for success. Already this election 
cycle, there has been spent in Federal elections alone $900 
million, and that is before the big show in the fall when a new 
President of the United States is going to be elected.
    This is not to suggest that money is the source of why many 
Americans are disenchanted with the political campaign process. 
Money in politics is like water, it will always find a way. As 
long as money is equated with free speech, the money will flow 
to campaign coffers.
    The source of the reason why Americans instinctively know 
that the system does not work as the framers intended is that 
politics has become a big business, a cost per vote business. 
The stakes are great, both money and power, and the temptation 
can be irresistible for many in the business of running 
campaigns to try and win at all costs, and I know this 
firsthand.
    As you may know and as you have said here today, I pleaded 
guilty to the charge of phone harassment in the New Hampshire 
phone jamming case and was incarcerated for 3 months at a 
Federal correctional institution.
    When confronted with my crime by our government, despite 
prior confidence that the law had not been transgressed, I did 
not hesitate to take responsibility for my actions. 
Unfortunately, I am the exception, not the rule, by being the 
only actor in this conspiracy to take responsibility for their 
conduct without indecision or hesitation.
    This is not to say new laws that address the symptoms of 
the problem should be crafted to prevent future abuses. Rather, 
I encourage this Committee to seek a new vantage point and 
confront the origin of the problem.
    Politics is populated by political professionals who, when 
not working on Capitol Hill, are working for either a major 
political party committee, a political consulting company, a 
lobbying firm, or in government relations for either a 
corporation or trade association, or for some other instrument 
like politically oriented non-profit committees--or for all 
concurrently.
    Therein is the solution you should consider. Just as 
lobbyists are required to disclose their activities to comply 
with the Lobbying Disclosure Act of 1995 and its amendment in 
2007, so should it be considered that political consultants be 
required to conduct themselves under the same transparency. 
Transparency seems the sunlight that is best for real reform. 
The protest such a bill would provoke is validation of the 
idea.
    In fairness to my former colleagues in the Republican Party 
and in the spirit to treat them better than they treated me, I 
cannot link the New Hampshire phone jamming scheme in any way 
to President George Bush's White House. However, having worked 
at the Republican National Committee in two capacities--as a 
regional political director similar to Mr. Tobin's position 
during the 2002 election cycle and as chief of staff to a 
Republican National Committee co-chairman and at the National 
Republican Senatorial Committee--I have the ability to speak to 
the processes in place while I was employed there, but not 
thereafter and not in the context of a Republican 
administration in the White House.
    Neither of the national Republican campaign committees 
mentioned above is managed by rogues, nor do they employ them. 
Knowing firsthand how both committees operate was a key factor 
to accepting the job of placing the phone jamming program with 
a telemarketing vendor following Mr. Tobin's inquiry on the 
matter.
    My training at both the RNC and the NRSC taught me two main 
operating procedures: the first being that as an agent of 
either committee one never instructed another committee on 
vendor preferences unless that committee was financing a 
program and the other being that unusual programs never saw the 
light of day without a thorough vetting by committee attorneys.
    When approached by Mr. Tobin about being hired to conduct 
the unusual program of jamming Democratic Party phone lines, I 
made the calculated assumption that both criterions had been 
met.
    Therefore, knowing Mr. Tobin knew of the program, it would 
seem to follow that there would be interest during the course 
of the investigation into this matter as to whether Mr. Tobin's 
superiors were also aware of the program, unless Mr. Tobin had 
safely concealed his rogue status during nearly a decade of 
employment at the RNC.
    However, I must also be fair and stress not being privy to 
every detail of this investigation, and, therefore, the 
questions raised may well have been satisfied.
    I am before you today by invitation and welcome your 
questions.
    Thank you very much.
    [The prepared statement of Mr. Raymond follows:]

                  Prepared Statement of Allen Raymond

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Sanchez. Thank you. We appreciate your testimony, Mr. 
Raymond.
    At this time, I would invite Mr. Twomey to give his 
remarks.
    Use your microphone.

  TESTIMONY OF PAUL TWOMEY, ESQ., TWOMEY LAW OFFICE, EPSOM, NH

    Mr. Twomey. Sorry.
    Thank you, Madam Chairman, Chairman Scott, Chairman 
Conyers, Ranking Member Cannon.
    My name is Paul Twomey. I am from Chichester, New 
Hampshire.
    A functioning democracy needs two essential things at its 
basis. It needs rules and procedures. It needs a system set up 
so the people have an equal and a fair access to elections, 
that all people and all ideas operate on a level playing field.
    That by itself is not enough. We have those things in our 
constitutions State constitutions, and our Federal 
constitutions. Those types of rules and procedures also existed 
under despots and dictatorships in the Soviet Union. You need a 
second element. You need a mechanism to enforce the rules, to 
deter those who would cheat, and to make sure that the level 
playing field stays level.
    For almost two centuries, the Department of Justice has 
admirably performed that function. Both the Civil Rights 
Division, the Public Integrity Division, the Criminal Division 
have all operated to stand up to those who sought to abuse 
power and those who sought to cheat to gain power. This is a 
critical function because when the people in a democracy fail 
to believe that the elections are fair, they opt out of the 
system.
    We now have a situation in which almost half the people in 
our country do not engage in their wonderful right to vote in 
elections. Anything that diminishes the confidence of the 
people in the fairness of elections is a serious matter. It is 
a serious matter the day it happens, the day after it happens, 
6 years after it happens.
    The tragedy of the New Hampshire phone jamming is not that 
the citizens' rights to freely associate and to communicate 
with each other were violated. This is a terrible thing, and it 
is, quite frankly, the kind of thing that has happened other 
times in the past.
    The real tragedy is that when the citizens whose rights to 
free association were violated turned to the Department of 
Justice for justice, they did not get justice.
    Now I am going to talk to you and I have used about half my 
time. Let me be very quick.
    There are a number of ways in which the Department of 
Justice did not provide justice, one of which is delays. 
Ranking Member Cannon said two things that were somehow 
difficult for me to square. One, he said that he should not be 
holding hearings in the middle of trials. And I agree with 
that. In general, you should not be because you should respect 
the right of people to have trials without interference by 
legislative bodies.
    Well, that has been said to the people of the State of New 
Hampshire since 2002. There have been trials going on since 
2002. The Department of Justice has slow walked this case and 
stretched it out so that there has never been a time when we 
could get the answers and the full answers to what went on.
    At the same time, Congressman Cannon said it is old news. 
Well, it is old news because we have not gotten the answers. We 
have been asking for the answers. Well, first of all, we 
forwarded this to the police immediately. It took a Manchester 
police officer exactly 1 day to essentially solve the case as 
to the people that actually effectuated it. It was then turned 
over to the Department of Justice.
    It took the Department of Justice 18 months to bring an 
indictment. It took them 9 months to interview a single person. 
There is no reason whatsoever that we understand now why that 
happened, and, again, during this entire period, my clients 
were continually asking the U.S. attorney's office and the 
Department of Justice what was going on.
    In December of 2003, all of the essential information was 
generated, all of the people had been spoken to. Mr. Raymond 
had spoken to the FBI, told them the full story. Mr. McGee, who 
was the executive director of New Hampshire Republican Party, 
had told them the full story. They had everything they needed 
to bring indictments in December of 2003.
    They slow walked the case through. They did not bring any 
indictments again until, I believe, July 28 of 2004. At that 
time, they did not indict Mr. Tobin, who was a regional 
director of the RNC and the Republican Senatorial Committee.
    There have been published reports, which I believe to be 
true, that the prosecutor in this case, Todd Hinnen, wanted to 
indict Mr. Tobin earlier, that he was forbidden to do so until 
after the presidential election. That is political interference 
with the administration of justice, and that is something that 
this Committee should take seriously.
    There are numerous ways in which the Department of Justice 
interfered with justice. A second way is that after the 
indictments were first brought by the civil case, as we were 
about to start our discovery, on the very first day of 
discovery, the Department of Justice, which had known about the 
civil case for a period of time, intervened at the last moment 
and brought about a halt in discovery. That set us back by 18 
months in which we were unable to ask any questions of anybody.
    Again, there have been published reports by the McClatchy 
newspapers that individuals high in the Department of Justice 
have stated that that interference was not done at the request 
of the prosecutor, but that he was ordered to interfere with 
the civil case and to slow walk it.
    Ms. Sanchez. Mr. Twomey, if you could summarize your final 
thought, I am sorry, but your time has----
    Mr. Twomey. Okay. I will very quickly say there is numerous 
evidence to believe that the White House may have had some 
involvement in this, the Political Office. There is a refusal 
to indict the New Hampshire Republican Party and perhaps the 
Republican National Committee, but at least the Republican 
State Party. The prosecutor wanted to indict them because they 
have obstructed justice. They withheld information. They 
refused to turnover their internal investigation. Again, 
higher-ups at the Department of Justice interfered.
    I could probably go on, quite frankly, for about 2 hours, 
and I am talking as fast as I can, and I am out of time.
    [The prepared statement of Mr. Twomey follows:]

                   Prepared Statement of Paul Twomey

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Attachment 1

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Attachment 2
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                         Attachment 3, 6 and 7

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Attachment 4

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Attachment 5

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Attachment 8

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Attachment 9

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                             Attachment 10

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                             Attachment 11

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                             Attachment 12

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                             Attachment 13

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Sanchez. I thank you for your testimony. Hopefully, we 
will be able to listen to some more of your information during 
our round of questions.
    Mr. Twomey. Thank you.
    Ms. Sanchez. At this time, I would invite Mr. Miller to 
please give his testimony.

         TESTIMONY OF MARK CRISPIN MILLER, PROFESSOR, 
               NEW YORK UNIVERSITY, NEW YORK, NY

    Mr. Miller. Thank you, Chairman Sanchez, Chairman Scott, 
Chairman Conyers, Ranking Member Cannon. I am very grateful to 
have been asked to speak here.
    I want to start my attesting that I am not a Democrat or a 
Republican, but an Independent dedicated to the promise of 
American democracy as envisioned by Tom Paine. I believe with 
him that the right to vote is the basis on which all our other 
rights depend. Thus, the issue here is ultimately not the 
victory or defeat of either party, but the people's right to 
choose their government and thereby live and rule in freedom.
    Such was once the view of the U.S. Justice Department whose 
Voting Rights Section strongly championed the individual right 
to vote by prosecuting all forms of illegal vote suppression. 
Since 2001, however, the department has turned a blind eye 
toward such crime.
    Take the case of Sproul & Associates, an Arizona firm hired 
by the Republican National Committee to run stealth voter 
registration drives throughout the Nation prior to the 2004 
election. Starting in the summer, Sproul's troops haunted 
public areas posing as non-partisan opinion pollsters or 
petitioners for liberal causes.
    Through such deception, the firm worked to inflate the 
number of registered Republicans, by any means necessary. 
Closely following a script, the operatives asked leading 
questions in order to identify Republicans and then asked them 
to fill out registration forms. The teams were ordered not to 
register Democrats or Independents.
    Nevertheless, many Democrats filled out the forms, and 
those forms were destroyed. Far more frequently, however, 
Sproul's troops bamboozled Democrats and Independents into 
registering as Republicans, either by altering the registration 
forms without their knowledge or by misleading them into re-
registering themselves.
    Such service was expensive. According to their filings with 
the Federal Election Commission, the RNC paid Sproul well over 
$8 million, the party's eighth-largest expenditure of the 2004 
campaign.
    And what did they get for it? Aside from ripping up the 
registration forms of many Democrats, the company appears to 
have created thousands of unwitting faux Republicans in Ohio, 
Florida, Nevada, Pennsylvania, West Virginia, Minnesota, 
Michigan, and Oregon.
    Thanks to those inflated numbers, there appeared to be more 
registered Republicans than there were in reality, a 
misimpression that would seemingly explain the party's upset 
wins in those States where the exit polls predicted otherwise.
    In Ohio, for example, countless Democratic votes were 
stolen through the tactics documented in the full Committee's 
seminal report on the election there: voter caging, thwarted 
registration drives, broad refusal of provisional ballots, 
organized disinformation and intimidation, shortages of 
functioning machines in Democratic districts only, and numerous 
machine irregularities undoing only Democratic votes.
    Those tactics were used also in those other States where 
the exit polls predicted a Republican defeat and where Sproul 
had also helped inflate the number of grassroots Republicans. 
Thus, the company not only broke the law, but also may have 
figured in a larger plan to block the vote.
    There are oddities, moreover, in the party's FEC filings, 
with nine expenditures totaling well over $1 million incurred 
somehow in 2005, suggesting an attempt to shave down the amount 
spent on Sproul's services.
    And so Sproul & Associates clearly merited a full 
investigation, and yet the DOJ did nothing. If there has been a 
Federal probe of Sproul's activities, I have never heard of it. 
Far from coming under Federal suspicion, Nathan Sproul, the 
firm's director, was invited to the Christmas party at the 
White House 2 months after the election.
    And while the DOJ has winked at practices that 
disenfranchise tens of thousands of Americans, that now wholly 
partisan department focuses obsessively on voter fraud, which 
numbers in the tens. Between 2002 and 2005, 24 people were 
convicted of illegal voting, with another 62 convicted since.
    Those low numbers reconfirm the scholarly consensus that 
voter fraud is actually quite rare. It is, in fact, the highly 
serviceable myth that helps to justify the actual vote 
suppression and election fraud that Sproul and others carry out 
to benefit their party.
    Today, the fantasy of voter fraud preoccupies the managers 
at Justice and the Supreme Court. It is, therefore, up to 
Congress to return us to reality and redirect this Nation 
toward democracy.
    I thank you all, and I will take your questions.
    [The prepared statement of Mr. Miller follows:]

               Prepared Statement of Mark Crispin Miller

    My name is Mark Crispin Miller. I am a professor of media, culture 
and communication at New York University, and a longtime analyst of 
media and politics. Lately my work has focused on the growing dangers 
of election fraud and vote suppression in this country. My books 
include Fooled Again: The Real Case for Electoral Reform (2005), and, 
more recently, Loser Take All: Election Fraud and the Subversion of 
Democracy, 2000-2008.
    I am not a Democrat or a Republican, but an Independent dedicated 
to the promise of American democracy as envisioned by Tom Paine. I 
believe, with him, that the right to vote is the basis on which all our 
other rights depend. And so the issue here is ultimately not the 
victory or defeat of either party, but the people's right to choose 
their government, and thereby live, and rule, in freedom.
    Such was once the view of the US Justice Department, whose Voting 
Rights Section strongly championed the individual right to vote, by 
prosecuting all forms of illegal disfranchisement. But things have 
changed since 2001, as the Department now turns a blind eye toward 
illegal vote suppression, as long as such blocked votes would not 
advantage the Republicans.
    Take the case of Sproul & Associates, an Arizona firm hired by the 
Republican National Committee to run stealth voter registration drives 
throughout the nation prior to the 2004 election. Starting in the 
summer, Sproul's troops haunted public areas, posing as non-partisan 
opinion pollsters, or petitioners for liberal causes. Through such 
deception, the firm worked to inflate the number of registered 
Republicans, by any means necessary.
    Closely following a script, the operatives asked leading 
questions--a form of ``push polling''--in order to identify Republican 
respondents, and then asked them to fill out registration forms.
    The teams had been instructed not to register Democrats or 
Independents. Nevertheless, many Democrats filled out the forms--and 
those forms were destroyed: ``We caught [my supervisor] taking 
Democrats out of my pile, [and] hand[ing] them to her assistant, and he 
ripped them up right in front of us,'' said one Sproul worker in Las 
Vegas.
    More frequently, however, Sproul's troops bamboozled thousands of 
Democrats and Independents into registering as Republicans, either by 
altering the registration forms, or by misleading people into thus re-
registering themselves.
    Such service was expensive. According to their filings with the 
Federal Election Commission, the Republican National Committee paid 
Sproul well over $8 million--making it the RNC's eighth-largest 
expenditure of the 2004 campaign. And what did the party get for it? 
Aside from disenfranchising those Democrats whose forms were ripped up 
by Sproul's staff, the company created thousands of unwitting faux-
Republicans, in Ohio, Florida, Nevada, Pennsylvania, West Virginia, 
Minnesota, Michigan and Oregon.
    Thanks to those inflated numbers, there appeared to be more 
registered Republicans than there were in reality--a misimpression that 
would seemingly explain the party's unexpected victories in those 
places where the exit polls predicted otherwise. In Ohio, for example, 
countless Democratic votes were stolen through the tactics documented 
in the full committee's excellent report on the election there: voter 
``caging,'' thwarted registration drives, broad refusal of provisional 
ballots, organized disinformation, blunt intimidation tactics, 
shortages of functioning machines in Democratic districts only, and 
numerous ``machine irregularities'' undoing only Democratic votes. 
Those tactics were used also in those other states where the exit polls 
predicted a Republican defeat--and where Sproul's firm had also helped 
inflate the number of grass-roots Republicans.
    Thus Sproul's firm not only broke the law, but may also have 
assisted in a larger plan to block the vote. (There are oddities, 
moreover, in the RNC's filings with the FEC, with nine expenditures, 
totaling well over $1 million, incurred somehow in 2005, suggesting an 
attempt to minimize the sum spent on Sproul's services.)
    Thus Sproul & Associates clearly merited a full investigation by 
the Justice Department; and yet the DoJ did nothing. If there has been 
a federal probe of Sproul's activities, I've never heard of it. Far 
from coming under federal suspicion, Nathan Sproul, the firm's 
director, was invited to the Christmas party at the White House two 
months after the election.
    And while the DoJ has winked at practices that disenfranchise tens 
of thousands of Americans, that now wholly partisan Department focuses 
obsessively on ``voter fraud,'' which numbers in the tens. Between 2002 
and 2005, 24 people were convicted of illegal voting, with another 62 
convicted since. Those low numbers reconfirm the scholarly consensus 
that ``voter fraud'' is actually quite rare. It is, in fact, a highly 
serviceable myth, and/or delusion, that helps to justify the actual 
vote suppression, and election fraud, that Sproul and others carry out 
to benefit their party. Today the fantasy of ``voter fraud'' 
preoccupies the managers at Justice, and the Supreme Court. It is 
therefore up to Congress to return us to reality, and redirect this 
nation toward democracy.

    Ms. Sanchez. Thank you, Professor Miller.
    We will now begin our round of questioning, and I will 
begin by recognizing myself for 5 minutes of questions.
    My first question is for Mr. Twomey. Do you think that it 
is appropriate for the Bush administration to refuse to explain 
key questions in the jamming scheme, such as who knew about the 
scheme at the White House and when they were aware of it?
    Mr. Twomey. In one word, no. We sought to get information 
from the White House about all the calls to the White House. 
There can be innocent explanations for those calls. This was 
during an election.
    But if we could see a pattern of who Tobin calls, Tobin 
being the RNC Bush-Cheney guy who made the calls, and what 
those people next did, we could have determined whether or not 
those were innocent calls or whether those were calls that were 
part of the conspiracy. We sought those. The White House 
refused to provide them.
    My understanding is that this Committee has not been able 
to get any information on that either.
    Ms. Sanchez. That is correct.
    My second question is also for you. Do you think that the 
Department of Justice had a conflict of interest in 
investigating the phone jamming case?
    Mr. Twomey. I think that those at the higher levels of the 
Department of Justice had an absolute and clear conflict of 
interest.
    The two attorney generals, Ashcroft and Gonzales, had 
obvious connections. Mr. Gonzales was in the White House when 
this occurred. He was White House counsel.
    There is a question about the White House Political Office 
having been part of it. That is an obvious conflict.
    Mr. Ashcroft was a member prior to his becoming attorney 
general of the Republican Senatorial Committee. That is where 
Mr. Tobin worked, one of the places he worked, besides the 
Republican National Committee. Those are obvious conflicts.
    They should have taken themselves out of this, out of the 
chain of command making these decisions.
    I do not believe the trial level attorneys themselves had a 
conflict, but the problem was they could not make the decisions 
on the case. We were told several times that the reasons things 
took so long and the reasons that certain things did not 
happen, such as indicting Mr. Tobin on a timely basis, was 
because of orders from above.
    Ms. Sanchez. Thank you.
    Mr. Raymond, you indicate in your book ``How to Rig an 
Election'' that your case went all the way to the top of the 
Department of Justice and was on John Ashcroft's desk. Do you 
think it was an unusual circumstance that the attorney general 
was personally looking into your case? And do you think the 
attorney general made selective decisions on which individuals 
to go after and that you were particularly targeted?
    Mr. Raymond. I cannot speak to the attorney general. I have 
no----
    Ms. Sanchez. Is your microphone on? I am sorry.
    Mr. Raymond. Is that better?
    Ms. Sanchez. That is much better.
    Mr. Raymond. I cannot speak to the motives of the Attorney 
General Ashcroft. I have never worked at the Department of 
Justice. I can say that a number of aides to Mr. Ashcroft have 
political backgrounds. That is how I met some of them. One had 
formerly been a political director of the Republican National 
Committee and, in fact, I think had been Mr. Tobin's superior 
at the time. So I certainly think that those calculations could 
have come into effect. I cannot speak to whether or not they 
did in fact.
    Ms. Sanchez. Do you think it was wrong for Mr. Tobin to 
continue to serve as a Bush campaign official when the 
Department of Justice had evidence that he was a clear 
participant in the jamming scheme?
    Mr. Raymond. Well, my understanding is once he was indicted 
and it was made public, he resigned. So it is a question of who 
knew what when, to coin a silly term, but I think that if his 
superiors had no idea it was going on, I think it was fine. If 
they did, then that is another matter entirely.
    Ms. Sanchez. Thank you.
    Professor Miller, have you heard of any other instances 
with any other voter registration firm where people were 
trained to register only voters of a certain party?
    Mr. Miller. I have not.
    Ms. Sanchez. So, to your knowledge, that was a unique 
circumstance?
    Mr. Miller. No. That is unique. It is worth noting also 
that Sproul's people often represented themselves as being with 
a group called America Votes, which is a well-established and 
respected non-partisan voter registration operation, and the 
people from America Votes eventually complained about this 
because this was clearly a partisan effort, and to answer your 
question, I cannot think of any other examples of that 
happening on either side.
    Ms. Sanchez. Okay. Can you describe in detail some of the 
other voter suppression strategies that might have been 
employed in the 2004 or the 2006 elections?
    Mr. Miller. That is a very big question. There are a number 
of books on the subject, and I would respectfully suggest that 
this should be, you know, a matter for a full investigation on 
its own. There has been a great deal of such activity.
    And let me answer one of Ranking Member's earlier questions 
in this regard. I do not believe that this kind of 
investigation should be restricted to what Republicans do. I do 
indeed believe that Democratic vote suppression and election 
fraud should be prosecuted as well. I am kind of a purist on 
this matter, and what is good for the goose is good for the 
gander.
    I also would agree that there has been election fraud in 
our history, sadly, forever. It goes way back, but having 
studied this and written extensively about it, I must 
conclude--and I am not the only one to draw this conclusion--
that what has happened over the last 7 years is unprecedented 
in our history, both for its scale and for its technological 
sophistication.
    The use of electronic voting machines of any kind seems to 
me quite perverse because what you have there is, in essence, a 
secret vote count. To have electronic machines on which you 
either vote or which count your vote is to use a technology 
that is tantamount to having somebody take the ballots home, 
pull the blinds, and then come out in the morning and say, 
``Here is the number. Take it or leave it.''
    Moreover, the companies that make the machines are private 
companies and are, therefore, unaccountable. So this represents 
something new, and even as we speak, there are things 
happening, such as the Veterans Administration now refusing to 
help wounded veterans register to vote, which was a policy they 
had briefly promised to change, and now we hear that they are 
not going to do it after all.
    I think that if we believe in universal suffrage and we 
believe in the right to vote, we should do everything we can to 
make that possible. Voter fraud is a problem, a very, very 
minor problem, but it seems to me that we could much more 
easily solve it by, for example, putting video surveillance in 
polling places than in passing laws that disenfranchise tens of 
thousands of people. That is like treating a minor headache by 
getting a lobotomy, you know.
    So, again, I appreciate your question and want to repeat 
that this matter is far too important, I think, to be left to 
either party and one that a Committee like this one should plan 
future investigations of.
    Ms. Sanchez. Okay. If the Committee will indulge me, I have 
one final question, which, hopefully, will be instructive.
    But, as I am sure you are aware, this is an election year. 
What do you think that we could do now to prevent situations 
like the New Hampshire phone jamming or Sproul's destruction of 
voter registration cards or any other attempts to suppress the 
vote? Prospectively, looking ahead, what would be some 
suggestions----
    Mr. Cannon. Would the gentlelady yield?
    Ms. Sanchez. I would yield.
    Mr. Cannon. I suspect the fact that two guys have gone to 
jail and a third might go to jail actually works its wonders in 
dissuading people from illegal activity.
    Ms. Sanchez. I would tend to agree to some extent, but no 
doubt there are further steps, I am sure, that could probably 
be taken to try to prevent those types of things from repeating 
themselves.
    Mr. Cannon. Well----
    Ms. Sanchez. You are----
    Mr. Miller. Yes.
    Ms. Sanchez. May I ask, Professor Miller?
    Mr. Miller. I mean, there have been grassroots movements 
all over the country, which are bipartisan, by the way, to try 
to either get rid of paperless voting machines and replace them 
with optical scanners or to get rid of both types of machinery 
and go back to hand count of paper ballots. Those movements 
have failed. A lot of reformist movements have failed for very 
complicated reasons.
    I think that the best thing that people can do now is to 
plan to monitor the election process aggressively and to make 
sure, whichever party they belong to, that they are registered 
because a lot of people are now turning up at the polls to find 
their names have been expunged. This is something that is often 
a result of voter caging, often a result of the improper use of 
felons' lists, but is also sometimes kind of summary action 
that relates to the fact that now we have electronic voter 
rolls. I mean, this is a terrible idea.
    So, basically, what I am suggesting is that people have to 
become informed about the issue, know what their rights are, 
make sure they are registered, monitor the process, make a 
tremendous racket if they see improprieties and so on, and 
understand that it does not matter which party wins. It really 
does not.
    If people are prevented from voting in an election, even if 
their chosen party wins, a terrible wrong has been done here, 
and there are people on the Republican side who agree with me 
very strongly about this.
    Ms. Sanchez. I agree that it is not a partisan issue, I 
think, with respect to an individual's right to vote.
    Just very quickly, Mr. Twomey, any suggestions 
prospectively, looking ahead, that might help prevent some more 
types of incidents?
    Mr. Twomey. I do not think there is anything that you can 
do in a general sense that will stop everybody from trying to 
gain an unfair advantage in elections. But I can tell you one 
thing, that if you cut off investigations and you do not engage 
in oversight of the Department of Justice, people will be 
encouraged to do it on a large-scale basis.
    Ms. Sanchez. Thank you.
    My time has expired.
    Mr. Cannon is recognized for 5 minutes of questions.
    Mr. Cannon. Thank you, Madam Chairman.
    Let me just associate myself with the comments of the 
gentlelady, which does not happen all that often, but this is 
really not a partisan issue, and, Professor Miller, I think you 
made that point. And I am not all that familiar with the Sproul 
case, but the way you characterized it is absolutely awful, and 
you have several crimes embedded in the description that you 
made that ought to be prosecuted.
    Let me ask Professor Miller, did you say that you do not 
know of another case like Sproul where only one party was 
targeted for registration?
    Mr. Miller. I cannot think of one offhand, no.
    Mr. Cannon. Are you familiar with the--pardon the familial 
reference here--but the Loretta Sanchez-Bob Dornan race in 1996 
where you had Hispanic groups registering voters, including at 
least 90 people who were here illegally?
    Mr. Miller. I have heard about it, yes, but, you know, I 
have not looked into it.
    Mr. Cannon. Okay.
    Mr. Miller. But I thought she was referring to, you know, 
nationwide registration drives.
    Mr. Cannon. Well, are you familiar with ACORN?
    Mr. Miller. ACORN? Yes, I am quite familiar with ACORN. 
ACORN has been sued repeatedly by lawyers for the Republican 
Party and has always prevailed. I think that ACORN is an 
entirely respectable operation.
    Mr. Cannon. But their focus has been registering Democrats, 
has it not?
    Mr. Miller. They are a liberal group, but they register 
people equally. They do not discourage people from registering.
    Mr. Cannon. But they do focus on areas where they think----
    Mr. Miller. They focus on areas where there are more 
Democrats, yes.
    Mr. Cannon. So the difference between ACORN and Sproul is 
that ACORN does not throw away or change registration documents 
after they have been filled out and----
    Mr. Miller. Well, they do not represent themselves as being 
something they are not. They do not throw away registration 
forms from the other side. They do not alter registration 
forms. I think those are significant differences.
    Mr. Cannon. Yes. Granted they are significant differences, 
although, I suppose, in this business, we often have people who 
are running for public office that represent themselves as 
something they actually are not.
    Mr. Miller. I cannot believe that. [Laughter.]
    Mr. Cannon. Thank you. I appreciate your comments, 
Professor. Well taken.
    Mr. Twomey, I was a little surprised by some of your 
opinions that were so clear about the Department of Justice. We 
have colleagues here of both parties who are under 
investigation, and all of them are really desperately wondering 
why it takes the Justice Department so long to do anything.
    It seems to me that much of your concern goes to what you 
have called the delay in the Justice Department. Are you 
frustrated because of the case in New Hampshire, or do you have 
broader experience where you have seen the Justice Department 
move more quickly?
    That is not a trick question, by the way.
    Mr. Twomey. Okay. I have been a criminal defense lawyer for 
30 years. The election law stuff I do is all pro bono. It is a 
sideline.
    Mr. Cannon. Have you done Federal prosecutions at----
    Mr. Twomey. Federal and State prosecutions.
    The case against Tobin to the level it went is a simple 
case. As I said, it took a Manchester police officer an hour to 
basically bring the investigation to a conclusion to that 
level.
    I have never seen a case take so long to come to trial, I 
mean, that was solved in the investigative sense so quickly. I 
mean, it is just astonishing to me.
    Mr. Cannon. Okay. My sense is that this is not a political 
issue, but rather an organizational issue----
    Mr. Twomey. If I could----
    Mr. Cannon [continuing]. At the Department of Justice.
    Mr. Twomey. If I could just say, I guess so, if we did not 
have reports that the prosecutor said that he was ordered to 
slow it down, if he did not tell people that the delays were 
due to interference by people above him, if there were not 
reports that he was told not to indict Mr. Tobin until after 
the presidential election. I might indulge in, I guess, the 
same kindness that you indulge, but we have a lot of evidence 
to indicate that it was political.
    Mr. Cannon. Were those political people or career people 
that made those suggestions?
    Mr. Twomey. That is what we need to find out. That is what 
we are asking you to find out. Was there political interference 
or wasn't there? If you----
    Mr. Cannon. Well, but do you know the people that were 
quoted as having said to slow it down?
    Mr. Twomey. Do I know them? No.
    Mr. Cannon. Do you know who they were in the----
    Mr. Twomey. No, I do not, and I think that is what your 
function as Congress is, is to engage----
    Mr. Cannon. How do you know that they were told that?
    Mr. Twomey. I do not want to talk over you, but could I 
answer the question? I do not know those people, but your 
function in Congress is to engage in oversight and to come to a 
conclusion. If you come to a conclusion that these were not 
political decisions and that they were prosecutorial decisions 
based fairly, I am fine with that. But I do not think that is 
what you are going to find, if you investigate it.
    Mr. Cannon. What I would like to know from you to help us 
in that regard is--you are aware that there were apparently 
some conversations from Justice saying slow it down--how are 
you aware of those so that we can go back and take a look?
    Mr. Twomey. Okay. I am aware of it from several sources. 
One is that two attorneys involved in the case, one Mr. 
Raymond's attorney and one an attorney for the Democratic 
party, a civil attorney, told me that the prosecutor in the 
case said that to them, okay. I am also aware from the reports 
in the McClatchy newspapers where they indicate that a senior 
Justice Department official said the same thing. I was not 
there, and I do not have any ability to----
    Mr. Cannon. Could I ask you to do us a couple of favors? 
One is, if you can recall who the prosecutor was, I would like 
to have the Committee have his name and whether context you 
could provide on that.
    Mr. Twomey. Yes.
    Mr. Cannon. The McClatchy papers ought to be relatively 
simple to get copies of if you could make those available to 
us.
    Mr. Twomey. Well, let me give you his name. Let me first 
say that I believe that all the trial level prosecutors--there 
was a change in the middle--all of them were people of the 
highest integrity. The name of the initial prosecutor that I 
was referring to then is Todd Hinnen.
    Mr. Cannon. All right.
    Ms. Sanchez. The time of the gentleman has expired.
    Mr. Cannon. Would the Chair indulge me in one more comment?
    Ms. Sanchez. I believe Mr. Scott wanted to question before 
we went to the floor, but we will be returning, and I would be 
happy to give you time after.
    Mr. Cannon. May I just make one comment?
    I just want Mr. Raymond to know I really enjoyed the 
performance and the book. I hope you sell more books based upon 
this hearing, although it does not look to me like we have a 
lot press here.
    Ms. Sanchez. Mr. Scott is----
    Mr. Cannon. Thank you. I yield back.
    Ms. Sanchez [continuing]. Recognized for 5 minutes of 
questions.
    Mr. Raymond. Thank you very much, Mr. Cannon. Appreciate 
that.
    Mr. Scott. Thank you.
    I just wanted to ask Mr. Raymond. You were convicted. Who 
else was convicted? First of all, are you represented by an 
attorney here today?
    Mr. Raymond. I am, yes. Pam Bethel sitting behind me.
    Mr. Scott. Thank you. How many people were convicted of 
incidents involved with the phone jamming?
    Mr. Raymond. There were three convictions, one acquittal.
    Mr. Scott. And were people involved who were not roped into 
the prosecution?
    Mr. Raymond. Everyone that I dealt with was charged in this 
case.
    Mr. Scott. Who hired you?
    Mr. Raymond. I was hired by the New Hampshire Republican 
State Committee at the direction of the agent of the Republican 
National Committee in New England.
    Mr. Scott. Did they know what you were going to do?
    Mr. Raymond. Yes. They instructed me to do exactly what I 
did.
    Mr. Scott. And the people in the Committee hired you?
    Mr. Raymond. Yes. The New Hampshire Republican State 
Committee hired me. They were my client.
    Mr. Scott. Madam Chair, we just have a few minutes. I would 
defer to the Chairman at this point, if he has questions.
    Ms. Sanchez. Mr. Conyers? Mr. Conyers is recognized for 5 
minutes.
    Mr. Conyers. Oh, thank you very much.
    How many minutes do we have left?
    Ms. Sanchez. We have 6 minutes and 30 seconds remaining in 
this vote. If you would like, we can come back and finish any 
unanswered questions.
    Mr. Conyers. I would prefer to come back, Madam Chairman. 
These are very important witnesses, and this is a very 
important session.
    Ms. Sanchez. I absolutely understand.
    Mr. Scott, is there anything further?
    Mr. Scott. Reclaiming my time then, how many people of the 
Republican Committee knew what you were going to do?
    Mr. Raymond. Well, to my knowledge, only Mr. Tobin. To my 
direct knowledge, only Mr. Tobin. I can only speak to Mr. 
Tobin's involvement.
    Mr. Scott. What did other people who were involved in the 
Committee think you were going to do when you were hired?
    Mr. Raymond. Are we talking about the New Hampshire 
Republican State Committee, or are we talking about the 
Republican National Committee, sir?
    Mr. Scott. Both.
    Mr. Raymond. Well, the New Hampshire Republican State 
Committee, their executive director instructed me to do the 
phone jamming. As for the RNC, again, I cannot speak to 
anything beyond Mr. Tobin. He is the only one at the RNC with 
whom I discussed this program.
    Mr. Scott. You discussed the program. And those are the two 
other people who were convicted?
    Mr. Raymond. Yes, sir.
    Mr. Scott. Do you have any information to know that others 
in the Committee knew what phone jamming was about?
    Mr. Raymond. I have no direct knowledge of that, no.
    Mr. Scott. Were others hired to do the same thing?
    Mr. Raymond. Were other vendors hired to do the same thing?
    Mr. Scott. Right.
    Mr. Raymond. Yes. No. I was the only vendor hired to do 
this job, to my knowledge. After approach by Mr. Tobin, having 
worked with Mr. Tobin when I was at the Republican National 
Committee----
    Mr. Scott. Did others of the Committee know what you were 
hired to do? Is there any way that people in the Republican 
National Committee knew that you had been hired and did not 
have a clue as to what you were up to?
    Mr. Raymond. The best way to answer----
    Mr. Conyers. Mr. Chairman? Madam Chairman? Would the 
gentleman yield for just a moment?
    Mr. Scott. I yield.
    Mr. Conyers. Mr. Raymond, we are very pleased and proud 
that you are here. We also know that you are still on 
probation. If I were you, I would answer these questions with 
great care in terms of their accuracy.
    Mr. Raymond. Yes, sir, I understand that. All I can tell 
you, sir, is that the only person at the Republican National 
Committee with whom I have direct knowledge knowing of this 
program was Mr. Tobin. I brought to that calculation to take on 
the assignment using my experience, having worked at the 
Republican National Committee, both as a regional political 
director and as a chief of staff to the Republican National 
Committee co-chairman. However, I do not have any knowledge 
directly of anyone else at the Republican National Committee, 
other than Mr. Tobin, who had any knowledge of this program.
    Mr. Conyers. Would the gentleman yield to me?
    Mr. Scott. I yield.
    Mr. Conyers. Are you telling us, sir, that you have never 
met another person in the Republican Party doing the same kind 
of work that you were hired to do?
    Mr. Raymond. The phone jamming was a very unusual request, 
and it is----
    Mr. Conyers. I know all about the phone jamming because you 
wrote a book about it.
    Mr. Raymond. Right.
    Mr. Conyers. Now are you telling us here before the 
subcommittee on--well, two subcommittees. Are you telling us 
that you have never met anyone else doing the same work as 
yourself?
    Mr. Raymond. I guess, if you could indulge me, sir, it 
means Republican----
    Ms. Sanchez. If I could ask the Chairman to----
    Mr. Raymond [continuing]. Or phone jamming specifically?
    Ms. Sanchez. If I could ask the Chairman to clarify that 
question, do you mean other forms of voter suppression, or do 
you specifically mean phone jamming? Does that help clarify?
    Mr. Raymond. Yes. I mean, are we speaking specifically 
about phone jamming?
    Mr. Conyers. Yes, specifically about phone jamming. Are you 
suggesting to us, sir, that you are the only person in the 
employ of the Republican Party and divisions thereof that were 
doing phone jamming that you had ever heard of?
    Mr. Raymond. This is the only time that I had ever 
encountered phone jamming. Yes, sir.
    Mr. Conyers. And you do not know anyone else that has ever 
done this before you?
    Mr. Raymond. As I sit here today, it does not come to mind. 
When it was presented to me at the time----
    Mr. Conyers. Okay. All right.
    Mr. Raymond [continuing]. It was the first time I had heard 
of that and it was very unusual.
    Mr. Conyers. Do you think that, as far as you know, this is 
the first time that they ever engaged in phone jamming?
    Mr. Raymond. Certainly the first and only time I ever did. 
Yes, sir.
    Mr. Conyers. I did not ask you that question.
    Mr. Raymond. Could you repeat the question, sir?
    Mr. Conyers. All right. In other words, you are suggesting 
to us or you are telling us here today that you had never heard 
of anybody that had ever done phone jamming in the Republican 
Party before you?
    Mr. Raymond. Yes. This is the first time a program such as 
this had ever been presented to me.
    Mr. Conyers. That is not the question that I asked you.
    Mr. Raymond. Okay.
    Mr. Conyers. You know, I would----
    Mr. Raymond. I----
    Mr. Conyers. You know, I admire you coming here. I am proud 
of the book that you have written. But I want to remind you, 
sir, please do your best here with these questions, and I know 
that if they are confusing or if I am not being clear, as I 
should, you may want to think over very clearly these questions 
I have already asked you and some more I am going to ask you 
while we are in recess.
    Ms. Sanchez. I think this is a nice natural breaking point. 
We have very little time remaining in the vote. We will recess. 
We will allow Mr. Raymond to think over the question that Mr. 
Conyers posed to him, and perhaps when we return, we can take 
up this line of questioning again.
    The Committee stands in recess.
    [Recess.]
    Ms. Sanchez. If we could please ask the witnesses to come 
forward and sit, I realize we are short one witness right now, 
but the Committee is going to come to order and we are going to 
continue with some questions and, hopefully, we will be joined 
by Professor Miller shortly.
    I believe prior to the vote, it was Mr. Scott's time for 
questioning. Well, Mr. Scott had yielded time to Mr. Conyers. I 
am going to give the time back to Mr. Scott to do with what he 
will, and we will recognize Mr. Conyers for questions 
afterwards.
    Mr. Scott. Thank you.
    Mr. Raymond, I----
    Ms. Sanchez. Mr. Scott, to be fair, I will give you 2 
minutes of questions.
    Mr. Scott. Thank you.
    Ms. Sanchez. Mr. Scott?
    Mr. Scott. Mr. Raymond, I had asked questions about phone 
jamming specifically, and maybe I should have asked it more 
generally. Was there a general strategy that you would use 
tricks and schemes to try to trick people out of voting?
    Mr. Raymond. In my book, I detail dirty tricks, absolutely. 
Yes, sir. If you want, I can give you some details on that.
    Mr. Scott. Yes, please.
    Mr. Raymond. You know, there are many ways to use data. 
There are many ways to deliver a message. A message can be 
delivered to try and alienate people. There are many ways to 
use existing infrastructure to anticipate political attacks, to 
divert political attacks.
    One example I would give you is using the Federal Election 
Commission. In an example I talk about in the book, managing a 
campaign with a candidate that had taken a contribution from a 
questionable source, knowing that questionable source could 
become a problem in the campaign, we directed that donor, that 
source, to give a little bit of money to our opponent so when 
that attack came, we could then dilute the attack and move on.
    Mr. Scott. Well, what about tricking people out of showing 
up on time to vote in the get-out-the-vote effort?
    Mr. Raymond. Yes, sir. I personally have never myself done 
that, and what I think I hear you saying are these things that 
you read about in the media about, you know, the election is 
now being held on Wednesday. That is not something I ever did. 
It is not something I ever witnessed personally being done. So 
I cannot speak to that.
    I, however, in running campaigns, have seen instances where 
flyers show up on Election Day generally targeted at lower-
income voters. One comes to mind in New Jersey when I was 
running a campaign a long time ago in the 11th District where 
flyers showed up on the street saying on Election Day, look out 
for the jump-out boys, and back then, what that meant was 
undercover police officers. These are clearly meant to 
intimidate people from voting.
    Legendary is the 1981 case in New Jersey, the Ballot 
Security Task Force, which I am sure the Committee is fully 
aware of, that actually resulted in an injunction against the 
Republican Party, and New Jersey being the place where I 
entered politics, where I, so to say, cut my teeth.
    So these are all things that as you run campaigns, you 
become made aware of, and you certainly know that they are part 
of the fabric of this business.
    Ms. Sanchez. The time of the gentleman has expired.
    At this time, I would recognize Mr. Conyers for 5 minutes 
of questions.
    Mr. Conyers?
    Mr. Conyers. Thank you, Madam Chair.
    This is very interesting. I have a question for Mr. Allen 
Raymond, and I want to commend you for being here with us 
today, sir.
    Mr. Raymond. Thank you, sir.
    Mr. Conyers. I want to commend you for the book that you 
have written because I think it is important for the American 
people to know some of the things, even though they may be 
unsavory, that they go on and you had the courage to come 
forward about it and to come forward to this Committee. So I 
thank you very much.
    Mr. Raymond. Thank you, sir.
    Mr. Conyers. You finished graduate school and joined the 
GOP for one reason, because rumor had it that there was big 
money to be made on the Republican side of the aisle.
    Mr. Raymond. Yes, sir.
    Mr. Conyers. And from the earliest days of the so-called 
Republican revolution, in culmination in the second Bush White 
House, you played a key role in helping GOP candidates twist 
the truth beyond recognition.
    Mr. Raymond. Yes, sir.
    Mr. Conyers. During a decade of crucial and bitterly fought 
campaigns, your career took you from the nastiest of local 
elections in New Jersey through runs for Congress and the 
Senate and right up to a top management position in a bid for 
the presidency itself.
    Mr. Raymond. Yes, sir.
    Mr. Conyers. And so this book that you wrote, I think, is 
an astonishing and frank look at some of the campaigning that 
goes on in the Republican establishment. I am paraphrasing now.
    Courageously on your part, you have acknowledged this, not 
just here, but in other forums, and that is why I want you to 
consider my questions of you not hostile or trying to embarrass 
you in any way because the vote of the American people is the 
cornerstone of democracy, and it is not like we have gathered 
here today to pretend that everything has always been nice up 
until this Administration. The history of voting in American is 
full of things that have gone on. Everybody has heard about it.
    But we have never met anybody like you with the courage 
enough to come forward and write it, to put it into American 
history. You are not writing hearsay or something you found out 
about going on in the library. You were in it, and now you are 
here to help this Committee, the voters of this country. That 
is what we stand for.
    You have heard me say here that the most important thing 
that this Committee can do between now and November 4 is make 
sure we have the fairest elections that are humanly possible, 
and we have heard from Attorney Twomey and Professor Miller and 
yourself that there are some big challenges ahead. This is not 
an easy job.
    And so I just wanted to thank you for everything that you 
have done and the way that you have helped us.
    Now didn't Abramoff write checks for the work that you were 
doing?
    Mr. Raymond. Well, there were certainly reports in the 
media that----
    Mr. Conyers. Oh, wait a minute. Stop. I do not care about 
any reports in the media. I have all the reports in the media 
we will ever need. Didn't you get checks from Abramoff for the 
work that you were doing?
    Mr. Raymond. Just so I can clarify, sir, in the New 
Hampshire Republican phone jamming? The phone jamming incident? 
No. I was paid by the New Hampshire Republican State Committee 
Victory Committee, so that the funds that I received directly--
--
    Mr. Conyers. No, you are answering the question that you 
wanted to answer. I did not say the New Hampshire phone 
jamming. You said it. I am talking about in anything and 
everything else. Now, look, we have had a nice conversation so 
far.
    Have you ever talked to Karl Rove?
    Mr. Raymond. In one instance. Yes, sir. I met Karl Rove.
    Mr. Conyers. Wait a minute. Have you ever talked to Karl 
Rove?
    Mr. Raymond. Yes, sir.
    Mr. Conyers. Now be careful about this. We have a rather 
large investigatory staff here of lawyers.
    Haven't you talked with him more than one time?
    Mr. Raymond. I have only met Mr. Rove once.
    Mr. Conyers. I did not ask you that. Haven't you talked 
with him more than one time?
    Mr. Raymond. I have only spoken with Mr. Rove on one 
occasion that I recall, sir.
    Mr. Conyers. All right. Could it have possibly been two 
occasions?
    Mr. Raymond. I only have one recollection of meeting Mr. 
Rove.
    Mr. Conyers. Okay. All right. Now have you ever talked with 
Mr. Abramoff?
    Mr. Raymond. I have never spoken with Mr. Abramoff. No, 
sir.
    Mr. Conyers. Have you known people that have?
    Mr. Raymond. Yes, sir.
    Mr. Conyers. And who are those people?
    Mr. Raymond. Michael Scanlon, sir.
    Mr. Conyers. Who is he?
    Mr. Raymond. Mr. Scanlon was a business partner of Mr. 
Abramoff.
    Mr. Conyers. Did you ever talk with Mr. Scanlon?
    Mr. Raymond. Yes, sir.
    Mr. Conyers. Now we are just about through, if you answer 
properly.
    Now let me ask you this. What was the relationship of 
certain persons in the White House to the operation that you 
were doing?
    Mr. Raymond. If by the operation, you mean the phone 
jamming, I have no knowledge of any involvement by the White 
House, any direct knowledge by the White House, in this 
program.
    What I can speak to is when I worked at the Republican 
National Committee, I understood the processes in place for 
people like Mr. Tobin--I formerly held that similar position in 
the mid-Atlantic region of the country--on how programs come to 
light. Stop me if I am giving more information than you care 
for, but----
    Mr. Conyers. You have not given me enough information yet, 
Mr. Raymond. Please continue.
    Mr. Raymond. Yes, sir. So my understanding when I was 
working at the RNC was twofold: one, as I said in my remarks, 
that a regional political director for the Republican National 
Committee did not instruct another committee or campaign, for 
that matter, whom to hire unless the RNC was directing the 
funds.
    The second criteria would be that a program as unusual as 
the phone jamming, which was the first time I had ever heard of 
such a thing--in fact, when it was presented to me, it took 
some time for me to figure out how to actually, one, do it, 
and, two, I, in fact, as I say in my book, saw it as so unusual 
that I actually consulted counsel. However----
    Mr. Conyers. You talked with your lawyer about----
    Mr. Raymond. Yes, sir.
    Mr. Conyers [continuing]. Its appropriateness.
    Mr. Raymond. Its appropriateness, its legality. Yes, sir.
    So the other thing that I had learned working at the 
Republican National Committee was that a program as unusual as 
this was did not see the light of day unless vetted by RNC 
attorneys, and so that was the operating procedure I knew, 
having had the same job at the Republican National Committee as 
Mr. Tobin did when he called me in 2002 about the phone jamming 
program. That is the knowledge I brought to that call. Those 
were the variables that I assessed in accepting the assignment, 
among others and, frankly, in the end, had a great deal to do 
with why I proceeded with the assignment.
    Mr. Conyers. If I could ask you unanimous consent to ask a 
question of Attorney Twomey, Madam Chair?
    Ms. Sanchez. Without objection, the gentleman will be given 
1 additional minute for questions.
    Mr. Conyers. This may take more than 1 minute, Madam Chair.
    Counsel, you have heard the witness to your left talk about 
a variety of issues that I have raised with him. Would you help 
me understanding and shed some light on some of the subjects in 
our discussion, please?
    Mr. Twomey. Certainly, Congressman. There were three things 
I heard that I think I can give you some information on.
    You asked him about who knew at the Republican State 
Committee in New Hampshire. As far as we can tell, everybody 
knew--the chair, the vice chair, the executive director, the 
finance director, and probably five to seven other people. 
There has only been one person that worked there that we have 
been able to identify who denies knowing about the phone 
jamming. Mr. McGee testified he discussed it with all of them. 
The finance director who took part in some of the payments said 
it was openly discussed.
    In regards to the Abramoff question, sometime shortly 
before the payments were made to Mr. Raymond--and he would not 
necessarily know this--two strange checks came into the New 
Hampshire Republican State Committee, one from the Mississippi 
Choctaw and another from the Agua Caliente tribe of California.
    Let me focus on that. They added up together to almost 
exactly the same amount as was paid to Mr. Raymond, which is 
one thing that brought it to my attention in the first case.
    We subsequently found out that the Choctaw money, which was 
$10,000, came in a single check that was hand delivered by a 
senior staffer of one of the New Hampshire senators to the 
Republican State Committee, that the Republican State Committee 
knew that it was an illegal donation--a maximum for an entity 
like the Choctaw Nation was $5,000--that they spent a 
considerable amount of time trying to decide how to handle this 
thing, and then pretended like it had been two separate 
donations, put one in their Federal PAC and one in their State 
PAC.
    So we thought for a couple of years that it actually would 
have been a $5,000 donation that they transferred because they 
made a transfer the same day. So it was very hard. Until we 
finally got discovery, we had never realized that it was a 
$10,000 single donation.
    So the Choctaw Nation was, I am sure the Committee is 
aware, probably the greatest source of funds for Mr. Abramoff. 
No Indian tribe had ever donated any money to any State 
committee in New Hampshire prior to this date, and, actually, 
the next year, the Chippewa band in Michigan did make a 
donation, though.
    Mr. Conyers. Thank you, Madam Chair.
    Ms. Sanchez. The time of the gentleman has expired.
    Mr. Cannon has asked unanimous consent for 2 additional 
minutes of questioning.
    Mr. Cannon is recognized.
    Mr. Cannon. I hope the clock runs at the same speed that it 
ran for the prior questioners.
    Mr. Raymond, were you a Republican before you decided to 
become a Republican consultant, or were you not a member of a 
party?
    Mr. Raymond. Prior to opening my own consultancy, I had 
worked in Republican politics since 1992, beginning on the 
Victory Committee for the Bush-Quayle campaign in 1992, and----
    Mr. Cannon. So you just bumped into being a Republican 
because there was more money there. You had been a Republican, 
right?
    Mr. Raymond. No, that is a very good question, sir. 
Actually, I went to graduate school and got a master's degree 
in political management. Coming out of that program, I made a 
decision on where to go and whom to work for, and the decision 
I made was to go to New Jersey and work for Republicans because 
that is where the most opportunity was.
    So, actually, I come from a long family of Democrats. My 
mother was mortified, but, in fact, to me, it was a business 
decision having just finished a master's degree in political 
management.
    Mr. Cannon. Where did you get your master's?
    Mr. Raymond. The Graduate School of Political Management, 
which is now affiliated with George Washington University.
    Mr. Cannon. Neat program, actually.
    Mr. Raymond. It is a very good program. Yes, sir.
    Mr. Cannon. So, basically, you are not a Republican or a 
Democrat. You are a guy who decided that the money was in one 
place and you went there, right?
    Mr. Raymond. I was a campaign professional. Yes, sir.
    Mr. Cannon. Exactly. Okay. And, of course, campaign 
professionals talk to each other. Do only Republicans do nasty 
things?
    Mr. Raymond. No, I would not say that, sir. I would say it 
happens on both sides equally.
    Mr. Cannon. I have not read your book, but I suspect that 
there is a lot of fun poked at on people on both sides of the 
spectrum.
    Mr. Raymond. Yes, sir. I tried to be very fair to everybody 
except for those who did not deserve the treatment.
    Mr. Cannon. And I take it those are the Republicans that 
you say threw you under the bus?
    Mr. Raymond. That is correct, sir.
    Mr. Cannon. Of course, having been a professional, being 
thrown under the bus was not actually unexpected, was it?
    Mr. Raymond. Well, I think that it was a bit of a surprise 
to me, not so much being thrown under the bus. I expected that 
when the scandal broke. It was the treatment thereafter. It was 
the $3 million spent on Mr. Tobin's behalf by the Republican 
National Committee that convinced me that the Republican Party 
was not a place that wished me to be around.
    Ms. Sanchez. The time of the gentleman has expired.
    Mr. Cannon. I ask unanimous consent for another couple of 
minutes, Madam Chair.
    Ms. Sanchez. I will give you 1 additional minute. I would 
like to wrap up this hearing before the next series of votes. I 
do not want to be running to the Capitol in high heels as we 
did last time.
    Mr. Cannon. That is hard.
    Ms. Sanchez. One additional minute.
    Mr. Cannon. Is Professor Miller not returning?
    Ms. Sanchez. We have not been able to locate Professor 
Miller, and I do not know where he is. I suspect----
    Mr. Cannon. We should try and get him some questions for 
the record and ask----
    Ms. Sanchez. We will have an opportunity to submit written 
questions to the witnesses. His stuff is still here. I imagine 
he is somewhere, but we have not been able to locate him.
    Mr. Cannon. Mr. Twomey or Mr. Raymond, are you aware of 
ACORN, the left-wing political activist group that registered 
people?
    Mr. Raymond. No, sir.
    Mr. Twomey. I have read reports. I cannot say I know a 
whole lot about it, but I have read newspaper reports and 
magazine articles. I think I read one on the train down here as 
a matter of fact.
    Mr. Cannon. Are you aware that eight workers of ACORN 
pleaded guilty of Federal election fraud by submitting 
falsified applications or that, on March 13, 2008, the 
Philadelphia election officials accused the Association of 
Community Organizations for Reform Now of submitting voter 
registration paperwork that was false or that they were accused 
of registering 18 felons in Milwaukee or that Barack Obama is 
associated with them, has been associated as a lawyer? Are 
those things new to you at all?
    Mr. Twomey. The very first thing you said, I learned on the 
train down here. I do not know if I learned it. I read an 
article that said something about eight people, and I think it 
also indicated that those people were disavowed by ACORN, but I 
really do not know very much about ACORN. I know nothing 
whatsoever about any connection with any of the presidential 
candidates. And the middle thing is that I cannot even 
remember, but I did not know it and I do not know it to be 
true. I really have very little information bout ACORN that I 
can share with you, sir. If you want to ask me a question about 
something I know about, I will be glad to answer it.
    Mr. Cannon. You have----
    Ms. Sanchez. The time of the gentleman has expired. I 
believe Mr. Raymond----
    Mr. Cannon. You are not familiar with it?
    Mr. Twomey. No, sir. No.
    Ms. Sanchez. The time of the gentleman----
    Mr. Cannon. Madam Chair, I yield back.
    Ms. Sanchez. Thank you.
    Mr. Conyers. Madam Chair?
    Ms. Sanchez. Yes?
    Mr. Conyers. You are the Chairperson of this important 
Committee. I have one question.
    Ms. Sanchez. The Chair really would like to conclude this 
hearing before the next series of votes. If you can ask your 
question quickly, I will give you time.
    Mr. Cannon. I certainly have no objection, Madam Chair.
    Ms. Sanchez. The gentleman is recognized for 30 seconds.
    Mr. Conyers, your 30 seconds starts now.
    Mr. Conyers. Mr. Raymond, the Republican National Committee 
was controlling your activities that brought you to this 
hearing. Is that correct?
    Mr. Raymond. The Republican National Committee?
    Mr. Conyers. RNC.
    Mr. Raymond. I am not sure I understand the question. I was 
invited here. I am no longer affiliated with any political 
party or political committee.
    Mr. Conyers. No, but when you were doing the things that 
you were doing to subvert the electoral process, the RNC was in 
control of your activities.
    Mr. Raymond. Yes. When I worked for the Republican National 
Committee, I----
    Mr. Conyers. Is that correct?
    Mr. Raymond. Yes, sir.
    Mr. Conyers. Of course. That is logical. Now wasn't the RNC 
in touch with the White House? Now I have warned you several 
times about accuracy. Wasn't the RNC in touch with the White 
House, as far as you knew, about the things you were doing?
    Mr. Raymond. I would have to answer that question by 
telling you, sir, that I never worked at the Republican 
National Committee when there was a Republican administration 
in the White House. However, understanding processes, it would 
stand to reason--and I accept and accepted at the time--that 
the political operation within the White House would directly 
control the Republican National Committee as the chairman is 
appointed by the President and, in fact, the political 
director----
    Mr. Conyers. Of course.
    Mr. Raymond [continuing]. Was bound to become the chairman 
of the Republican National Committee. So, yes, although I did 
not have any direct knowledge, I take it this means that they 
would.
    Mr. Conyers. I understand. In other words, Mr. Tobin was 
getting instructions or was clearing his activities with 
somebody?
    Mr. Raymond. Yes, sir. He certainly was.
    Mr. Conyers. I mean, he was not----
    Mr. Raymond. He was not in charge, yes.
    Mr. Conyers [continuing]. Some wild lone ranger out there. 
It was coordinated.
    Mr. Raymond. As I said----
    Mr. Conyers. He would not be able to do these kinds of 
things that you were doing without somebody over him being in 
control?
    Mr. Raymond. My experience with the Republican National 
Committee is it does not employ rogues, nor is it run by 
rogues, and Mr. Tobin certainly worked there for nearly a 
decade and would have to have concealed----
    Mr. Conyers. I do not know who the rogues are and the 
people that have not been prosecuted yet or who the criminals 
are. I do not want to characterize anybody. There was a chain 
of command, and this Committee will probably have to continue 
this inquiry.
    Mr. Cannon. Would the gentleman yield for one moment?
    Mr. Conyers. Of course.
    Mr. Cannon. Mr. Raymond, I think, has testified now based 
upon his understanding of the politics of the RNC and the White 
House, although he did not work at the RNC when the White House 
was controlled by Republicans. But to the degree you are aware 
of that, you are also probably aware of the fact that when 
Democrats have been in control of the White House, the 
Democratic National Committee has also been run by the White 
House. Is that not fair to say?
    Mr. Raymond. Yes, sir. I think that would speak for itself. 
Yes, sir.
    Mr. Cannon. And so some of the shenanigans----
    Ms. Sanchez. The time----
    Mr. Cannon [continuing]. That happened under the Clinton 
administration----
    Ms. Sanchez. The time of the gentleman has expired----
    Mr. Cannon. Would that not be the case?
    Ms. Sanchez [continuing]. And I----
    Mr. Raymond. We cannot speak to that.
    Ms. Sanchez. I do not know that that is relevant for the 
inquiry about the specific phone jamming because my 
understanding is there was a Republican administration when 
that happened, that there was some funding issue that came 
through the RNC, and that there may have been some direction 
from upper echelon party operatives directing this type of 
activity to happen.
    With that----
    Mr. Cannon. If the Chair would yield----
    Ms. Sanchez [continuing]. I----
    Mr. Cannon [continuing]. It is true that----
    Ms. Sanchez. I would like to conclude the hearing today. 
There will be an opportunity to submit additional questions.
    I want to thank the witnesses for their cooperation and 
being here to testify. We realize it has been trying with the 
votes in between.
    I only regret that the DOJ did not send a witness so that 
we could have asked specific questions as to what happened 
within the DOJ.
    Without objection, Members will have 5 legislative days to 
submit any additional written questions, which we are going to 
forward to the witnesses and ask that you answer as promptly as 
you can so that they can be made a part of the record.
    And without objection, the record will remain open for 5 
legislative days for the submission of any additional 
materials.
    Again, I want to thank everybody for their time and 
patience. I wish we could have been more focused in the 
questioning and in the comments to the subject matter of 
today's hearing, but, again, I thank the witnesses for their 
indulgence.
    And, at this time, the joint hearing of the Subcommittee on 
Commercial and Administrative Law and the Subcommittee on 
Crime, Terrorism, and Homeland Security is adjourned.
    [Whereupon, at 4:54 p.m., the subcommittees were 
adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Response to Post-Hearing Questions from the Honorable Paul W. Hodes, a 
       Representative in Congress from the State of New Hampshire

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

  Response to Post-Hearing Questions from Allen Raymond, Bethesda, MD

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

      Response to Post-Hearing Questions from Paul Twomey, Esq., 
                      Twomey Law Office, Epsom, NH

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

Response to Post-Hearing Questions from Mark Crispin Miller, Professor, 
                   New York University, New York, NY

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
